<html>
<title> - JUSTICE FOR ALL: A REVIEW OF THE OPERATIONS OF THE DISTRICT OF COLUMBIA SUPERIOR COURT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





JUSTICE FOR ALL: A REVIEW OF THE OPERATIONS OF THE DISTRICT OF COLUMBIA 
                             SUPERIOR COURT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2004

                               __________

                           Serial No. 108-185

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-422                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2004...................................     1
Statement of:
    Ashby, Cornelia M., Director, Education, Workforce and Income 
      Security Issues, U.S. General Accounting Office; Elliott S. 
      Hall, chairman, Council for Court Excellence; Rhonda 
      Dahlman, esquire, legal counsel for the elderly, American 
      Association of Retired Persons; Nicholas Ward, esquire, 
      former chairman, Guardian and Conservator Committee, 
      District of Columbia Bar Association; and Michael F. 
      Curtin, esquire, former deputy register of wills, member, 
      District of Columbia Bar...................................    70
    King, Rufus G., III, chief judge, District of Columbia 
      Superior Court; Lee F. Satterfield, presiding judge, Family 
      Court, District of Columbia Superior Court; and Jose M. 
      Lopez, presiding judge, Probate Division, District of 
      Columbia Superior Court....................................    19
Letters, statements, etc., submitted for the record by:
    Ashby, Cornelia M., Director, Education, Workforce and Income 
      Security Issues, U.S. General Accounting Office, prepared 
      statement of...............................................    73
    Curtin, Michael F.,esquire, former deputy register of wills, 
      member, District of Columbia Bar, prepared statement of....   126
    Dahlman, Rhonda,esquire, legal counsel for the elderly, 
      American Association of Retired Persons, prepared statement 
      of.........................................................   110
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................    16
        Washington Post articles.................................     3
    Hall, Elliott S., chairman, Council for Court Excellence, 
      prepared statement of......................................   101
    King, Rufus G., III, chief judge, District of Columbia 
      Superior Court, prepared statement of......................    22
    Lopez, Jose M., presiding judge, Probate Division, District 
      of Columbia Superior Court, letter dated May 6, 2004.......    61
    Ward, Nicholas,esquire, former chairman, Guardian and 
      Conservator Committee, District of Columbia Bar 
      Association, prepared statement of.........................   119
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................   143

 
JUSTICE FOR ALL: A REVIEW OF THE OPERATIONS OF THE DISTRICT OF COLUMBIA 
                             SUPERIOR COURT

                              ----------                              


                         FRIDAY, APRIL 23, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in Room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Davis, Tiberi and Norton.
    Staff present: David Marin, deputy staff director/director 
of communications; Keith Ausbrook, chief counsel; Howie Denis, 
counsel; Robert Borden, counsel/parliamentarian; Drew Crockett, 
deputy director of communications; John Cuaderes and Victoria 
Proctor, senior professional staff members; Teresa Austin, 
chief clerk; Brien Beattie, deputy clerk; Rosalind Parker, 
minority counsel; Earley Green, minority chief clerk; Jean 
Gosa, minority assistant clerk; and Cecelia Morton, minority 
office manager.
    Chairman Tom Davis. Good morning. A quorum being present, 
the Committee on Government Reform will come to order and we 
have the most important Members here anyway. I would like to 
welcome everybody to our oversight hearing on the District of 
Columbia Superior Court. In Federalist No. 22, Alexander 
Hamilton noted that the crowning defect of the Articles of 
Confederation was the lack of a judiciary. Today we'll look at 
the management, the administration of that critical element of 
our political system in the District of Columbia. We'll focus 
particularly on the probate division and the family court which 
play an important role in protecting the most vulnerable among 
us, the elderly, the infirm and the children.
    Before we begin, I want to take a moment to acknowledge the 
passing this week of Mary McGrory, the long-time Washington 
Post and Washington Star columnist. I do so today because among 
the many highlights in her distinguished career, Mary was a 
strong advocate for children in the District of Columbia, 
including her support for the creation of a D.C. family court. 
Using her customary mix of charm and tenacity and her space on 
the editorial page of one of the Nation's largest newspapers, 
Mary became an irresistible force for better legal treatment 
for the most defenseless members of our society. Her 
contribution to this city and this region will be sorely 
missed.
    This hearing will focus on three main areas. The first is 
general administration of the D.C. Superior Court, including 
performance goals and measures, fiscal management and the 
integrated justice information system. The second is the 
probate division, particularly the possible neglect or abuse by 
court-appointed guardians and conservators. And the final area 
is how the establishment of the family court has improved child 
welfare in the District of Columbia. Regarding the probate 
division, this committee is concerned that court-appointed 
guardians and conservators are taking advantage of or 
neglecting their clients. We have received a report that a 
conservators' failure to make mortgage payments on the ward's 
house resulted in a foreclosure.
    The same conservator failed to pay real estate taxes, 
failed to make annual financial filings and failed to prevent 
the health care provider from taking assets of the ward. This 
report comes on the heels of the Washington Post series that 
detailed instances of mistreatment of elderly, mentally ill and 
indigent individuals by guardians and conservators appointed in 
the District of Columbia, and suggested that the court system 
exercised little control or discipline over those it appoints 
to protect the needy. I'd ask unanimous consent that these 
articles from the Post be included in the record at this point. 
Without objection. So ordered. The committee needs to know how 
and whether the court addresses these problems.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.082
    
    [GRAPHIC] [TIFF OMITTED] T5422.083
    
    [GRAPHIC] [TIFF OMITTED] T5422.084
    
    [GRAPHIC] [TIFF OMITTED] T5422.085
    
    [GRAPHIC] [TIFF OMITTED] T5422.086
    
    [GRAPHIC] [TIFF OMITTED] T5422.087
    
    [GRAPHIC] [TIFF OMITTED] T5422.088
    
    [GRAPHIC] [TIFF OMITTED] T5422.089
    
    [GRAPHIC] [TIFF OMITTED] T5422.090
    
    [GRAPHIC] [TIFF OMITTED] T5422.091
    
    [GRAPHIC] [TIFF OMITTED] T5422.092
    
    [GRAPHIC] [TIFF OMITTED] T5422.093
    
    Chairman Tom Davis. There is a question as to whether 
existing safeguards such as new training and performance 
standards for probate lawyers, as well as screening procedures 
for an appointment of guardians and conservators are enough and 
whether other actions by the court or by Congress is needed. 
I'm also interested in learning more about the administration 
of the probate division because this committee has received 
reports of delays in processing appointments reports and 
payment requests. We need to better understand the appointment 
responsibilities and accountability of the registrar of wills 
and her staff, the relationship of the register of wills office 
with practitioners and the adequacy of the reporting 
requirements for conservators and the enforcement of those 
requirements by the register of wills and the court.
    As for the family court, most of you know Congress created 
this court as part of a broader reform effort in the child 
welfare system, and as an extension of the reform we'd already 
begun with the District's Child and Family Services Agency. The 
Family Court Act of 2001 was crafted to resolve specific 
shortcomings in the court, including structural organization 
and case management practices.
    The act increased the number of family court judges and 
required that judges have a background in family law and 
participate in ongoing training. This was intended to ensure 
that family court judges are dedicated to serving on the court 
and alleviate the sense among many judges that serving on the 
family court is a required stepping stone to a more desirable 
position on the superior court. The new family court permits 
judges to maintain manageable case loads. It is intended to 
reduce the backlog of cases that existed for many years. 
Furthermore, the critical one family, one judge concept allows 
for the continuity of case managements and requires that a 
single judge follow the case through disposition. Consolidation 
of public functions of the court sends the message to the 
public that the family court is an integral and critical part 
of the court system, not an afterthought.
    Today witnesses will discuss the court's progress in 
implementing the Family Court Act as well as its compliance 
with the Adoption and Safe Families Acts. GAO reports that the 
family court is making progress in both areas and is seeing 
tremendous improvements in its operations as a result. However, 
there are still areas for improvement which we have asked the 
court to address, such as better compliance with the ASFA 
permanency deadlines. We will determine what, if any, 
assistance we may provide to guarantee the family court 
continues moving in the right direction. We have a 
distinguished group of witnesses before us this morning. First 
we'll hear from the chief judge of the superior court and the 
presiding judge of the family court and the probate division.
    Then we will hear from the Council for Court Excellence, 
which can address their work in all three areas that we are 
looking at today. The General Accounting Office, which has done 
extensive analysis of the family court situation. A 
representative from the Legal Counsel for the Elderly, which 
represents indigent persons in probate proceedings and two 
members of the D.C. Bar, who practice in the probate court. I 
want to thank all of our witnesses for appearing before the 
committee. I look forward to their testimony.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.001
    
    [GRAPHIC] [TIFF OMITTED] T5422.002
    
    Chairman Tom Davis. Ms. Norton any opening comments?
    Ms. Norton. Thank you very much, Mr. Chairman. As usual, I 
associate myself with the chairman's remarks. I'd particularly 
do so as to those part of his remarks that--to the part of his 
remarks concerning Mary McGrory, and I note for the record that 
the chairman has extolled the virtues of a confessed and 
unabashed liberal. Thank you, Mr. Chairman, for initiating this 
hearing. I have only brief opening remarks. This is a necessary 
and appropriate oversight hearing, because Federal law has 
placed jurisdiction and the cost of the DC courts with the 
Congress. Today the committee is focusing on two parts of the 
superior court, because each has had its own sets of problems.
    This committee has worked--has closely followed the family 
court division since the death of an infant, Brianna Blackman, 
exposed the structural issues in the old family division. As a 
result, Majority Leader Tom DeLay, who has long been involved 
with issues of affecting abused and neglected children, and I, 
worked for many months on the District of Columbia Family Court 
Act of 2001, H.R. 2657. The first revision of the superior 
court since its creation more than 30 years ago. The court 
initially resisted many of the changes, although many had long 
been recommended by respected panels such as the Council of 
Court Excellence. Nevertheless, I think it is fair to say that 
a successful major transformation in the family court has been 
undertaken.
    I appreciate the partnership I had with Mr. DeLay in 
writing the bill and his efforts, which assured substantial 
increased funding to carry out the extensive changes the new 
law made in the court. The Congress paid for this 
transformation with extra funding, but the court deserves the 
credit for the considerable changes. Today, I will be 
particularly interested in learning why this success has not 
been reflected where it is most needed, in the timely placement 
of foster children in permanent homes. The probate division is 
a different case. The committee has not previously looked at 
the probate division but learned of problems the same way we 
originally learned of the problems of the family division, 
through unfavorable public reports. Just as the death of 
Brianna focused the Congress on the family division, reports of 
neglect of infirmed adults by guardians and conservators 
indicated a need for attention to the probate division.
    Apparently, change is underway. I will be particularly 
interested in the court's progress in meeting the problems of 
the probate division. May I thank all of today's witnesses for 
their work with our courts and for their testimony. Thank you, 
Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Testifying on our 
first panel we have the Honorable Rufus G King III, the chief 
judge of the District of Columbia Superior Court, the Honorable 
Lee F. Satterfield, presiding judge, Family Court of the 
District of Columbia Superior Court; and the Honorable Jose M. 
Lopez, presiding judge of the probate division.
    It's the policy of the committee that all witnesses be 
sworn before they testify. Would you rise with me and raise 
your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Judge King, we'll start with you. And 
try to keep the testimony to 5 minutes. If you need to go over, 
it's pretty informal today, but your entire testimony is 
already in the record, and we've read it and have questions 
based on that, so you can highlight what you need to do. And 
you have a light that will turn orange after 4 minutes and red 
after 5. And do your best to adhere to it, but we're here to 
listen to you and get input and just have a conversation. 
Judge, thanks for your service and thanks for being with us 
this morning.

   STATEMENTS OF RUFUS G. KING III, CHIEF JUDGE, DISTRICT OF 
 COLUMBIA SUPERIOR COURT; LEE F. SATTERFIELD, PRESIDING JUDGE, 
FAMILY COURT, DISTRICT OF COLUMBIA SUPERIOR COURT; AND JOSE M. 
LOPEZ, PRESIDING JUDGE, PROBATE DIVISION, DISTRICT OF COLUMBIA 
                         SUPERIOR COURT

    Judge King. Thank you, Mr. Chairman. Congresswoman Norton, 
thank you for the opportunity to appear today. If I may beg 
your indulgence for just a moment, I would like to add my 
appreciation for Mary McGrory. One of the facts that isn't 
talked about as much as some of her many accomplishments is 
that for over 50 years, every week, week in and week out, 
without break for holidays or any other reason, she would go 
out to the St. Anne's infants home and read to and play with 
the children who were at that home as a result of various 
family dysfunctions. And in working with her, I know from 
having been her target a number of times, how incisive her mind 
was.
    At the same time, I think that her service at St. Anne's 
infants home speak volumes of the huge size of that person. I 
am going to take just a few moments because I know the 
committee wishes to hear from the family court and the probate 
court to touch on a few of the things that the superior court 
has ongoing now and has recently completed. I must begin by 
thanking both of you, as well as the majority leader for the 
support you have given the superior court and our family court. 
The Family Court Act of 2001 and the resources that you help to 
provide to implement that act upgrade our IT systems and 
enhance our facilities has been most beneficial, not just for 
the court, but more importantly, for the District of Columbia 
public.
    On behalf of Chief Judge Annice Wagner of the court of 
appeals and myself, I want to express our deep appreciation for 
the strong support you have shown us. To touch on a few of the 
current and recent activities, the D.C. Family Court Act has 
now fully implemented one judge, one family, transfer of cases 
into the family court, more timely permanency for abused and 
neglected children about which more from Judge Satterfield. The 
Mayor's Services Liaison Office is up and running in the 
Moultrie Courthouse, making services available easily for those 
who need them. A family court self-help center was developed 
and implemented in partnership with the family bar to assist 
unrepresented litigants.
    A family treatment court has been established for mothers 
with substance abuse problems so that they may receive drug 
treatment, counseling and parenting classes without having 
their families torn asunder in the process. Interdisciplinary 
training has been held annually for judges, social workers and 
others, tightening our connection with and coordination with 
others in the child welfare system. Elsewhere in the superior 
court, the Landlord Tenant Resource Center has been developed 
and opened, again in partnership with the bar to provide 
assistance to those most in need of it in that very busy court.
    The Greater Southeast Domestic Violence Intake Unit has 
been established and assists over 100 domestic violence victims 
each month in the east of the river community, enabling them to 
obtain temporary protection orders at a location near their 
homes. Community courts have been set up as pilot projects, 
first in the minor misdemeanor and traffic court, and then in 
our general misdemeanor court, covering all of the east of the 
river community in wards 6 and 7. And that--and as well, we 
have established a separate prostitution calendar.
    Those courts are showing promising results in providing a 
fresh and more successful approach to some of the social 
problems that contribute to the crime that so many of us 
experience. Town hall meetings have been held both in 
connection with the community courts and with the family court 
to make sure that we are aware of the concerns of the 
communities we serve and what we're trying to accomplish for 
them. We have four more such meetings planned over the next 6 
weeks. The court's new integrated justice information system 
has been implemented in the family court and will be brought 
on-line in the probate and civil divisions some time in the 
early summer. I just replaced 20 different data bases the court 
has been using for over 2 decades and brings us closer to a 
reality of being able to easily coordinate cases from all 
different parts of the superior court, which is a unified court 
system.
    The probate division, working with the bar, established a 
mandatory training requirement for attorneys who wish to 
receive court an appointments and is in the final stages of 
writing practice standards for all attorneys appearing before 
the division. An administrative order tightened requirements 
for timely filing of reports and accountings and it is in the 
final stages of revision, consistent again with comment from 
the bar. And we are seeking to continue our collaboration with 
the bar in addressing various concerns in that division, as you 
will hear more about shortly. Building B has been renovated and 
the small claims and landlord tenant courts have been relocated 
there to actually where they originated in 1938 in public 
friendly space within steps of the judiciary square metro stop.
    The Crime Victims Compensation Program has received a major 
physical renovation and up lift at its quarters in building A. 
Currently, a major construction project is underway in the 
Moultrie Courthouse to consolidate family court public 
operations on the J M level. This new family friendly space 
will have a central intake office for all types of cases and 
filings, child waiting areas and new courtrooms and hearing 
rooms and it will open in July. I am particularly proud to be 
able to report that all of these construction projects have 
been completed on schedule and in budget.
    Finally, the District of Columbia courts have developed a 
strategic plan and are well along the way toward implementing 
it. Led by the Strategic Planning Leadership Council made up of 
judges and senior administrators, each division and branch of 
the superior court is developing management action plans to 
bring the broad court wide goals into specific projects and 
operations. The ultimate goal is to better realize the court's 
mission, to protect rights and liberties, uphold and interpret 
the law and resolve disputes peacefully, fairly and effectively 
in the Nation's Capital.
    I will stop here as I understand the committee wishes to 
hear from the presiding judge of the family court, Judge Lee M. 
Satterfield, and from the presiding judge of the probate 
division, Judge Jose M. Lopez. Thank you for allowing me to 
speak on behalf of the superior court. I will be happy to 
assist in any questions.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Judge King follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.003
    
    [GRAPHIC] [TIFF OMITTED] T5422.004
    
    [GRAPHIC] [TIFF OMITTED] T5422.005
    
    [GRAPHIC] [TIFF OMITTED] T5422.006
    
    [GRAPHIC] [TIFF OMITTED] T5422.007
    
    [GRAPHIC] [TIFF OMITTED] T5422.008
    
    [GRAPHIC] [TIFF OMITTED] T5422.009
    
    [GRAPHIC] [TIFF OMITTED] T5422.010
    
    [GRAPHIC] [TIFF OMITTED] T5422.011
    
    [GRAPHIC] [TIFF OMITTED] T5422.012
    
    [GRAPHIC] [TIFF OMITTED] T5422.013
    
    [GRAPHIC] [TIFF OMITTED] T5422.014
    
    [GRAPHIC] [TIFF OMITTED] T5422.015
    
    [GRAPHIC] [TIFF OMITTED] T5422.016
    
    [GRAPHIC] [TIFF OMITTED] T5422.017
    
    [GRAPHIC] [TIFF OMITTED] T5422.018
    
    [GRAPHIC] [TIFF OMITTED] T5422.019
    
    [GRAPHIC] [TIFF OMITTED] T5422.020
    
    [GRAPHIC] [TIFF OMITTED] T5422.021
    
    Chairman Tom Davis. Judge Satterfield, welcome. Thanks for 
being here.
    Judge Satterfield. Thank you. Good morning. And thank you, 
Mr. Chairman and Congresswoman Norton. Every day a District 
child is placed in a safe permanent and stable home is a great 
day for our city. As a result of the additional resources that 
Congress has provided, as well as the ongoing collaboration 
with agencies such as CFSA and other District agencies that 
serve children and families, I believe we are able to say that 
we have more and more great days in the District of Columbia. 
When it comes to our family court, and when it comes to abused 
and neglected children, we focus on four things, safety, 
permanency, due process and timeliness.
    When we have implemented programs and initiatives, we have 
implemented them with these areas in mind. For example, in 
terms of safety, we conduct prompt and more detailed meaningful 
emergency hearings when children are removed from their 
families, not simply to talk about placement issues, but also 
about the services that the children need and the services for 
the family. In cases where mothers are substance abusers, they 
now have the option of remaining with their children but in a 
safe environment through our Family Treatment Court Program, an 
environment through which they can learn to parent their 
children as well as learn how to maintain their sobriety.
    In terms of permanency, we have increased our compliance 
with conducting timely permanency hearings. In cases of 
neglected children filed in 2001 and 2002, we show a compliance 
rate of 75 to 80 percent of the cases had permanency hearings 
on time, the majority of those cases had permanency goals set 
for the children. And so far in our cases that were filed in 
2003, they are meeting their permanency hearing goal this year, 
86 percent of those cases have had their permanency hearing.
    However, we recognize that we have more work to do in the 
area. We want to make sure that these hearings are of the most 
quality and that all the necessary findings are being made in 
order to assure that there is a quality outcome for the child. 
And we have not met our goal of 100 percent compliance with 
conducting these permanency hearings timely. That's a goal that 
may be aspirational for some, but we think it will be realistic 
for us. Nevertheless, more children were adopted in the 
District of Columbia in 2003 than in 2002. And more children 
achieved permanency in 2003, than in 2002. And when it comes to 
reunification, when it is an appropriate goal in the case, they 
have achieved reunification much quicker than in the past.
    In terms of due process, we try to insure that there is 
adequate representation for parents, children and youth and we 
did that by creating panels of qualified attorneys to represent 
parents and youth and to serve as guardian ad litem. We began 
our guardian ad litem program with a contract with the 
Childrens Law Center, a nonprofit organization to provide 
guardian ad litem services to some of our children, as well as 
additional training for some of the other attorneys. Standards 
of practice are in place----
    Ms. Norton. Could I interrupt you, Judge Satterfield? Do we 
have testimony from you here.
    Judge Satterfield. It is incorporated with the Chief 
Judge's testimony in one statement.
    Chairman Tom Davis. One major packet and then they are each 
speaking individually to it.
    Ms. Norton. Thank you. You can proceed.
    Judge Satterfield. Sure. All right. Thank you. We have 
standards of practice in place for attorneys practicing in the 
area of abuse and neglect, and the Chief Judge is about to 
adopt standards of practice for attorneys representing youth in 
our juvenile court. In addition to parents being notified to 
attend hearings through the efforts of CFSA, foster parents are 
now more consistently being notified of hearings and we appoint 
volunteer advocates in our cases to protect the children.
    And finally, in terms of timeliness, there's been a steady 
decline in the time it takes to resolve the legal issues of 
whether neglect has occurred. And this has resulted from the 
increasing judicial resources as well as our child protection 
mediation program which has resolved this issue in a less 
adversary manner. We believe that the glue that has helped put 
all this together has been the implementation of the one judge, 
one family case management approach. As required under the 
Family Court Act, this enables the judge to schedule things 
more timely and to make better decisions because the judge 
knows more about the family. And also the improved 
communications with CFSA.
    I continue our biweekly meetings with the director of CFSA, 
and will continue to do so with the interim director who starts 
next week. We continue our collaboration with CFSA on many 
promising projects such as the family treatment court, the 
bench mark permanency hearings for our older children and in 
terms of assignment of cases geographically and scheduling of 
hearings. We have started a new operational meeting designed to 
be not just informational between the agency and the court, but 
problem solving. And we continue ongoing discussions about 
enhancing our exchange of information electronically.
    In conclusion, I'd like to say that it is obvious to us 
that we have more to do when it comes to children and families 
in the District of Columbia and we know that. But we are 
confident that things will continue to get better. We have 
disciplined motivated judges and managers and staff in family 
court that are passionate about the work that they do. We will 
continue our collaboration with stakeholders, but we truly 
would like to see each day as a great day for a District's 
child. Thank you very much.
    Chairman Tom Davis. Thank you very much.
    Judge Lopez, thanks for being with us.
    Judge Lopez. Good morning, Chairman Davis, Congresswoman 
Norton.
    Chairman Tom Davis. There is a button there you push that 
we can hear you better.
    Judge Lopez. As you can tell, I am new at this. Good 
morning, Chairman Davis, Congresswoman Norton. Thank you for 
the opportunity to testify before you. I will just take this 
opportunity to highlight some of the accomplishments of the 
past year or so though I must say in all modesty, I have only 
been presiding judge of the probate division for the past 4 
months. The probate division was one of the few divisions that 
piloted the strategic planning process by developing its 
management action plan [MAP], a very apt acronym since a plan 
really is a map of what the terrain looks like right now and 
where we want to head over the next few years.
    The probate division MAP process was so successful that the 
register of wills was asked to give a presentation to all other 
court managers on how her team went about creating their map. 
Other divisions are using our process as a best practices model 
for their MAP development. As an update, the division recently 
celebrated completion of several milestones in the MAP design 
to enhance services to the public.
    On February 19 and 25, 2004, the staff participated in a 
customer service training program facilitated by an outside 
trainer. The program included an open discussion sharing 
recently received comments from bar members regarding areas in 
which services provided by the division could be improved. I 
participated in that program. The division also administered a 
survey during the period of February 23 through 27 as a key 
step in the map objective to solicit inputs from probate 
division consumers regarding probate clerical operations and 
performance. Completed surveys were received from over 75 
percent of the persons assisted in the probate division on the 
day the surveys were administered.
    The results were that more than 90 percent of the 
respondents agreed or strongly agree that the services they 
receive in the probate division were courteous and responsive; 
95 percent receive assistance within 10 minutes of waiting, and 
96 percent reported their visit was a positive experience. In 
any event, the MAP includes targets for improvement and we will 
work toward these. The division has held customer service 
training and will continue in those efforts.
    I would like to go back a bit further for a few actions 
outlining Chief Judge King's written testimony and that 
demonstrate our responses to the concerns. Effective January 1, 
2003 the panel of attorneys that the judges use to select 
attorneys for appointment as fiduciaries and counsel was 
reconstituted. It now includes only attorneys who have supplied 
certification of training mandated by the court. We now have a 
requirement of at least 6 credit hours of training per year in 
order for attorneys to remain on the panel. Our Judicial 
Education Committee has been feverishly working to develop 
probate practice standards and Chief Judge King has completed 
the administrative order to make the standards official.
    My training plans for this year include an orientation for 
attorneys and staff to improve their working relationship, an 
orientation on the new practice standards and evaluative 
programs focusing on the duties and responsibility of 
guardians.
    Finally, we have begun planning with the probate review 
committee to establish a task force designed to address the 
issues that they have raised. I thank you for the opportunity 
to testify before you today and I present information about 
recent development in the probate division as well as some of 
the challenges we face. I will be pleased to answer your 
questions.
    Chairman Tom Davis. Thank you very much. Let me start out 
with a question kind of for everybody, and general question. 
What performance goals do you set to gauge the effectiveness of 
the court? And how do you measure the outcome?
    Judge King. That's an important part of our strategic 
planning. Obviously timeliness is one important measure. But 
there are other subtler measures in different divisions of the 
court, depending on how--depending on the subject matter that's 
under consideration. In family court, obviously there is always 
an issue of safety and responsiveness to the child's needs. We 
are developing measures for those various performance 
standards, and I hope over time we'll have a much more exact 
standard. The new computer installation, IJIS system, is also 
being developed with the goal in mind of being able to give us 
more easily complete reports that will allow us to measure what 
we've done and to establish base lines against which we can 
measure our project progress.
    Chairman Tom Davis. Everyone confer?
    Judge Satterfield. I don't have much to add, other than, 
one of the things that we are collecting data on and plan to 
extract from the new system in areas for instance for safety, 
you know, whether or not there has been any reoccurrence in 
terms of neglect issue, whether it is the family that the child 
came from or with the foster family.
    Chairman Tom Davis. I mean obviously you get another 
Brianna Blackman you can have the most timely thing, but 
that's----
    Judge Satterfield. Right. Exactly. So we have to measure 
that. We have to measure the number of placements that children 
are in, and we're going to be looking at any disruption in the 
adoptions that have been granted to make sure that we measure 
that as well. In terms of our older kids, we want to see the 
number, percentage of our kids that actually, what we call age 
out of the system come down and we'll measure how we're doing 
by looking at that percentage over the years.
    Judge Lopez. Obviously a key factor here is the management 
action plan and the set of goals that we have developed for 
each of those goals essentially we have four key actions steps 
to planning the issues that you raise. The first step will be 
to determine the existing rate of compliance, at least by 
December 31, 2003, and we have established that already. And 
then we are going to review and revise the standards to enhance 
efficiency through January 2004 and through January 2005. We 
will publish standards within the probate division as deemed 
appropriate by register of wills office, at least by February 
2005, and then we will monitor and evaluate performance by 
September 2005 and annually thereafter. The goal is at least to 
meet 90 percent of the established case processing standards by 
fiscal year 2005.
    Chairman Tom Davis. OK. On the probate side, obviously your 
filing deadlines are critical to tell you if things are going 
well, aren't they?
    Judge Lopez. Very critical.
    Chairman Tom Davis. And do you have like a tickler system 
in there on these, that dates have to be met by counselors in 
there that--so you can police the counselors or not?
    Judge Lopez. One of the difficulties we were having in the 
past is an antiquated tickling system which will now be 
enhanced by the new integrated justice information system that 
we expect to go live this summer. And that will be the greatest 
improvement that we will have that we will keep track of 100 
percent of our cases.
    Chairman Tom Davis. I know you're spending--all of you are 
spending time and money upgrading the court's information 
technology infrastructure, because ultimately that will give 
you the best most current information and allow you to police 
this and you're less subject to human error and the like. Where 
does your Web site fall into these plans?
    Judge King. We have, up until now, we have been borrowing a 
Web site hosted by the D.C. Bar, very kindly afforded us that 
opportunity. Obviously that's been an interim measure because 
the--they have concerns about some limits on what we can put 
on. I think the term is shovel wear. But for us it's important 
large documents such as some of our rules and some of the 
budgets data and things of that nature. We plan to open our own 
Web site in September of this year. We've now--we have the 
funding and we have the project underway and we will be opening 
our own Web site, which will play an integral part in informing 
the public of what we're doing and keeping our operations 
transparent.
    Chairman Tom Davis. OK. How many judges do you have serving 
the court in total? And the caseload? Can you divide that up? I 
know it's gotten a little better, hasn't it.
    Judge King. The superior court, even with recent downturns 
in caseloads, remains one of the busiest trial courts in the 
Nation with highest caseloads per judge. We have--at the moment 
we are passing through 60 active judges on our way back to the 
statutory cap of 59 judges. That will occur--our next seating 
of a judge will occur two retirements from now, if that makes 
sense.
    Chairman Tom Davis. Is that a statutory cap that----
    Judge King. It is a statutory cap which----
    Chairman Tom Davis. Set by us or by the city?
    Judge King. By the Congress. We are hopeful that cap might 
be lifted, not because we want an unlimited number of judges, 
but because as we stay at the 59-judge level, if vacancies then 
occur and it takes us 6 months to a year to fill them, we 
become--it can impose real hardship. So it's really a matter of 
timing. If we had the cap lifted, we would be able to target 
the level of 59 in our budget discussions with Congress, but 
would have the flexibility of making sure that people were 
ready to take their seats as soon as the retirements or moves 
occur.
    Chairman Tom Davis. Why does it take 6 months to a year to 
get those things?
    Judge King. It is a nomination process at the nominating 
commission and then it comes to the White House. They take some 
time to review.
    Chairman Tom Davis. Is that statutory. Or is that----
    Judge King. It's all statutory.
    Chairman Tom Davis. So it's our fault.
    Judge King. Of course. It's all Congress's fault. It's not, 
and this is not in any way--I mean it just--the process takes 
time.
    Chairman Tom Davis. Let me ask you this. Then, given that 
statutory limit, how do you make the determination of how many 
judges and the staff levels for each division?
    Judge King. Within the division, fortunately I didn't have 
to start from scratch. There historically has been a sort of a 
level of caseloads that have dictated sort of rough parameters. 
The total caseload is 135,000. There are 76,000 civil cases, 
32,000 criminal, 8,500 domestic violence, 11 or almost 2,000 
family court cases, 2,500 probate cases and 180 tax cases.
    We have divided and, in fact, one of the things that I'm 
faced with as we speak is because of that 59 cap, and because 
we have committed 15 judges to the family court, I'm going to 
have to close some calendars in the civil and criminal 
divisions, which will involve a slight delay, additional delay 
in processing those cases. Those--but it's based on the 
caseloads and the types and complexity of the cases is what we 
try to do, and we are studying integrated case management 
profiles to make sure that we're getting it right.
    Chairman Tom Davis. What percent of the criminal cases are 
pled out at the early stages? Most, 80, 90 percent.
    Judge King. I can get you the exact percent, but it's 
something like 90.
    Chairman Tom Davis. Otherwise, then you'd never have enough 
time.
    Judge King. We would come to a grinding halt as is true of 
criminal courts all over the United States.
    Chairman Tom Davis. Correct. That's interesting. If I were 
to ask--I'm just asking your opinion. How many judges would you 
need to get at least on a temporary basis, I mean, to be able 
to get things back to normal in terms of the docketing and the 
time sequence and so on.
    Judge King. If we had the--if we had the cap of 62, that 
would give us the flexibility to maintain our calendars where 
we'd like to see them. We could work within that--we could work 
within that parameter.
    Chairman Tom Davis. Could you discuss some of the community 
based operations you've established? You have a satellite 
domestic violence unit. You have community based courts, how 
they're funded and Federal grant programs that may be available 
if you're working with those. And can the information 
technology improvements enhance those provisions to service 
this community.
    Judge King. Most of these satellite and innovative courts 
are initially grant funded, although as we find that they are 
successful in the way that the satellite domestic violence 
intake center has been successful, we very much hope that they 
will become regularly funded as part of our operating budget. 
Our efforts are in a number of areas. The domestic violence one 
has been an unqualified success.
    In fact, we had Mrs. Tony Blair while she was here, visit 
it as pursuant to her interest in the area of domestic 
violence. She took away, I think a very good impression of the 
way it operated. We are working in a number of fronts in the 
community courts. And the objective there is to promptly and 
effectively connect the offenders with services that relate to 
the social and other issues that contribute to criminal 
behavior, and the objective is to slow down the revolving door 
and try to keep people from coming back to court.
    Those efforts, again, usually are grant funded to start, 
but then have come in, although the criminal community court is 
a rearrangement of our existing resources. So the extra 
resources needed are primarily those at the back end where the 
services need to be rendered. Additionally drug treatment 
services, mental health services and the like, many of which 
come through the city rather than through our direct funding.
    Chairman Tom Davis. Judge Satterfield said that 86 percent 
of permanency decisions are made in compliance with the 
deadlines, right.
    Judge Satterfield. That's of cases that were filed in 2003. 
The cases that were filed in 2001 and 2002 are at 75 to 80 
percent in terms of the timeliness of having the hearing.
    Chairman Tom Davis. OK. What's the problem with the 14 
percent?
    Judge Satterfield. Well, the problem with the 14 percent is 
that we are not getting there. We need to make sure that the 
judges who get there will be put in place is through some of 
the resources that you have given us, we now have an attorney 
advisor office that has two attorneys that initially focus on 
some of the older cases to make sure that we have those cases 
in compliance.
    They're going to be going forward in looking at the newer 
cases that are coming up for permanency hearing. Most of our 
judges may conduct them ahead of time, but they have to make 
sure that they make timely findings in them and the appropriate 
findings and they're going to be tracking that and sending them 
notices when they do not, sending them suggestions when they do 
not.
    With the new integrated system they're going to be able to 
just go into the computer and look at the court orders on the 
screen as opposed to pulling the jackets and those kinds of 
things.
    Chairman Tom Davis. Well, the Legal Times--and I know it's 
complicated. You know, I wanted to be a judge. I didn't have 
the political clout to be a judge so I ended up coming here. 
The Legal Times reported recently that the number of abuse and 
neglect filings over the past 2 years has dropped by 43 
percent. Can I--what's your perspective on this current 
phenomenon? Do you think the cases are filed with the court 
later than they should to be ensured the well-being of the 
child involved, or----
    Judge Satterfield. Well, I think there are some instances 
where we have felt that cases in the magistrate judges and 
judges had reported to me and that they felt that a case should 
have come in the system earlier. I do not know the full 
explanation for it. I know that investigations are the same. 
The numbers are the same. The same numbers of call-ins that are 
being made to see if they're safe. I know that more cases are 
being treated. Our concern is simply though that right 
decisions are being made and let's not forgo bringing it to 
court just so that we won't have a court case. If it's 
necessary for the safety to protect the children, the child and 
family, we need to bring it to court.
    Chairman Tom Davis. What criteria are we using to recruit 
family court judges?
    Judge Satterfield. The criteria are the criteria that's 
been set out in the statute. They have to volunteer and they 
have to have the kind of experience that is appropriate for 
handling family court cases and agreed to the term 
requirements----
    Chairman Tom Davis. Are you getting many volunteers?
    Judge Satterfield. Well, we haven't had to seek them out 
since we started family court in 2000, because we've not had 
anyone leave except for Judge Shuker, who left due to 
retirement. And then we had Judge Sattler come in after Judge 
Shuker. But the judges have been staying beyond their term. We 
expect that we are going to be seeking volunteers at the end of 
this year because some of the judges will probably leave family 
court who have stayed beyond their terms. But we have not 
actually encountered that yet.
    Chairman Tom Davis. The D.C. courts have embarked on a very 
ambitious renovation and construction project, to meet your 
space needs. Can you give us an update on the status of the 
project? I'm also really particularly interested in the 
consolidation of the efforts of the family court and how the 
renovation project affects that.
    Judge King. We have developed a 10-year space needs plan, 
master plan for providing for our space needs, which does a 
couple of things. First, it addresses all of the family court 
construction needs and we understood during the discussions 
that led up to the Family Court Act that we had to begin 
operations, even if we had to operate in the hall. And we've 
done that. There remain two steps to complete the family court 
development. First is the step that's underway to bring the 
public functions into contiguous space on the J M levels and 
the first floor, Indiana level at the courthouse. That will 
leave some of the support functions, the clerical functions and 
office support functions placed in other parts of the court 
building and court complex.
    Over a slightly longer term, we will be adding an envelope 
to the south face of the Moultrie Building, which will provide 
the space that will allow us to bring all of the family court 
functions into a contiguous space. At the same time, the build 
out of the family court has had impact on some of the other 
operations. We have, moved landlord tenant and small claims to 
a separate building. Eventually we will be moving the probate 
court to its own set of courtrooms and offices. And we will be 
relocating things so that each of the other branches has the 
same state-of-the-art contiguous space and public access that 
we are now developing in the family court. Combined with that 
is the restoration of the old courthouse, which was the Supreme 
Court of the District of Columbia back in the early 1800's.
    It will become the court of appeals. That is the next 
stage. That's the next phase. But--and I believe we have 
submitted this and I will be happy to submit copies if there's 
any question about whether you have them, a rather elaborate 
schedule of construction and design phases that all work 
together, assuming the good Lord willing, the creek don't rise 
and the Congress provides the funds.
    Chairman Tom Davis. Well, the first two look good.
    Judge King. The first two I can probably deal with. The 
third I have no control over.
    Chairman Tom Davis. Judge Lopez, I know you have only been 
there a short time. But the reports in the Washington Post and 
other information provided to the committee reveal the 
importance of the court in exercising its power to sanction 
lawyers and fiduciaries to protect the rights and property of 
those in the care of guardians and conservators.
    What disciplinary action can you take against guardians or 
conservators for these violations? How often do you take these 
actions? Were any sanctions imposed in those cases referenced 
in the Post stories? Was anyone referred to the bar for 
discipline? I'll just go general and you can--are you satisfied 
with these sanctions that they are sufficient to deter a 
disregard for the filing requirements and would you suggest any 
additional sanctions.
    Judge Lopez. The sanctions that we have for the attorneys 
is, No. 1, remove them from the list of attorneys that will be 
appointed any further cases in the future, in addition, refer 
the attorneys to bar counsel who then takes on the 
responsibility for deciding what kind of sanction or discipline 
to impose. In addition, in some cases and this was one of these 
that was reported in the Washington Post, I have had the 
necessity to refer the matter to the U.S. Attorneys Office for 
Prosecution.
    Chairman Tom Davis. Do you need any other tools. Do you 
think that those are enough tools to wake up the bar? In terms 
of sanctions and so on.
    Judge Lopez. I believe so. I believe that one of the real 
difficulties we had was in catching up with the culprits at an 
early stage, and I think that with our IJIS system, we will be 
able to catch up with the attorneys and their filing in such a 
timely fashion that we should not have many more of those 
problems in the future.
    Chairman Tom Davis. How about, I mean, you do have contempt 
authority, right.
    Judge Lopez. We have contempt authority and when they are 
in violation of a court order, the contempt authority can also 
be used as a sanction.
    Chairman Tom Davis. Has it been used in any of these cases, 
to your knowledge?
    Judge Lopez. Yeah. None of these cases has been used 
because in none of the cases the violations have been from a 
perspective of contempt of court, but rather a violation of 
their fiduciary duties and as such, they have been referred to 
the bar counsel.
    Chairman Tom Davis. Is this widespread or is this just a 
few attorneys?
    Judge Lopez. Oh, it is very few. Very few and right now, I 
would venture to say probably none.
    Chairman Tom Davis. So a handful of them give the whole 
court a bad name basically.
    Judge Lopez. Essentially.
    Judge King. Mr. Chairman, if I might just add one thing. In 
response to some of the problems that were highlighted in the 
press, I issued an administrative order that basically stopped 
compensation to any of the lawyers who were serving as 
fiduciaries in--until all of their reporting requirements had 
been met on a current basis. We are in the stages of revising 
that so that we're not caught up in punishing trivial 
infractions or trivial delays. But the objective basically, I 
think, has been accomplished and will be maintained that if you 
want to practice law in the probate division, you're going to 
have to do it on time.
    Chairman Tom Davis. Judge Lopez, I just have one other 
question. According to your testimony, about 40 percent of the 
conservatorship accounts have substantial deficiencies. That 
sounds pretty high. You know, from my perspective. I didn't do 
much probate before I came here, but what sort of guidance did 
the court offer to conservators to prepare conservatorship 
plans, inventories of accounts? Do you provide anything like 
the guides that are provided, like the Fairfax County Clerk's 
Office has a huge handbook for guardians and conservators, the 
administration of estates, that they hand out that make it 
pretty clear, forms, everything else. Do you have anything like 
that?
    Judge Lopez. Yes, we do. All of the attorneys--all of the 
attorneys who before they can participate as a fiduciary and 
appointed, they must take the 6-hour program when we have 
documented materials booklets that we provide for them on the 
process and how they must proceed.
    Chairman Tom Davis. So they go through that and they get 
all the documents and stuff?
    Judge Lopez. Yes.
    Chairman Tom Davis. Do you have enough--is there a shortage 
of qualified guardians and conservators?
    Judge Lopez. I don't believe we have a shortage of 
qualified guardians. And I believe that the most significant 
thing and what we have been doing is training them so they can 
understand and appreciate what their duties and 
responsibilities are and we continue to work on training them 
in that area.
    Chairman Tom Davis. How about for the public? Some of the--
the stuff I just held up from the Fairfax court is available to 
the public. This is what the public gets as well. It is a nice 
policing action, if you will. It keeps them----
    Judge Lopez. We have had certain brochures that we were 
assisted in drafting these brochures by counsel for court 
excellence, and I helped to develop some of those brochures. 
And in our map, one of these goals to develop a variety of 
informational materials such as brochures and checklists for 
litigants and for court users to be sure that we can get enough 
to all of them as they come and get appointed to the cases.
    Chairman Tom Davis. I mean, there's never a shortage of 
lawyers. I mean, we know that. But I mean my question is, you 
don't think there is a shortage of qualified guardians and 
conservators and there's people who are really qualified, so we 
really don't need fee payment increases or anything to get more 
good people into it.
    Judge Lopez. I don't see a shortage in that respect, no, 
sir.
    Chairman Tom Davis. That's fine. Ms. Norton.
    Judge King. If I might just add, there is one thing. There 
was, I think in some of the testimony today reference to 
whether a--there might be a social worker or other professional 
on staff in order to assist guardians, and particularly 
nonlawyer guardians. That frankly is not an idea that we have 
pursued, but it is one that would certainly be willing to 
consider and we are working closely with the bar. We are, in 
fact, setting up a task force to look at some of the questions 
and issues that they have and that will be an opportunity for 
us to determine if something of that nature might be a helpful 
remedy.
    Chairman Tom Davis. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Let me begin with you, Judge King.
    First of all, let me congratulate you and Judge Satterfield 
for the very considerable efforts. I have seen these efforts 
from beginning to end. I have seen the court change very 
substantially and in the process of rebuilding the Family 
Division from the ground up because the changes are just that 
extensive. They involve every aspect not only in the 
distribution of cases but interface with another agency 
entirely, the CFSA, and not to mention the very complicated 
work of computerization so that parts of the court talk with 
one another.
    Let me assure you that chairman who has a long history of 
respecting the home rule and I don't sit to see if we can find 
problems with the courts. The reason we are having this hearing 
is because problems have come out. This, of course, as I 
indicated in my opening statement, was how we learned about 
Brianna Blackman and let me tell you why I find that troubling 
as a predicate to my own statement.
    I encourage the Congress to let DCPDC take care of itself. 
The Council, of course, does much more rigorous oversight for 
what it does. This committee has to do the oversight for the 
courts.
    Now we wouldn't have known a thing about needed changes in 
the Probate Division if the Washington Post hadn't done our job 
for us. That is very troubling when it comes to court. But what 
it does is to turn back to us and say, well, maybe we ought to 
be rummaging through this court a lot more.
    My question to you is, having seen problems with the Family 
Division first and now with the Probate Division embarrass the 
courts, frankly, because they became--I mean, Brianna 
Blackman--I think the woman won a Pulitzer Prize and now we had 
long, absolutely astounding revelations, absolutely astounding 
revelations about court oversight of people who were entirely 
dependent upon lawyers who I can only call crooked, doing 
everything from stealing money to paying absolutely no 
attention as members of the bar to what they were supposed to 
do.
    My question to you is whether or not the court is prepared 
to look at each and every division of the court just as you 
have now looked at the Family Division and done a magnificent 
job. Now you are looking at the Probate Division, and I see 
very substantial changes there. But I tell you, we wake up and 
see reports about the Criminal Division or the Civil Division. 
Then, you know, what we do is reduce the confidence of the 
Congress and the entire court, even if the court does what you 
have so ably done with the Family Division and now are 
undertaking the Probate Division.
    I want to know whether there's any way for the superior 
court to self-initiate a look at all of its divisions and send 
to us in advance a written report about what that self-
initiation shows. I am quite beyond probate and family court, 
because I see that action is under way there. I am now asking 
the court to be proactive and asking you whether or not such a 
review of each and every division of the court can be 
undertaken before the Washington Post--who is always rummaging 
for stuff like this, because that is their job, too--having 
seen what has happened in two divisions then goes looking to 
other divisions to see if they can find similar problems.
    Judge King. I appreciate the question; and, as a senior 
administrator, I would obviously want to--I would hope to be 
engaged in addressing a problem before the Washington Post gets 
to it. I am very hopeful that the strategic planning process 
that we are engaged in now will do just that.
    Ms. Norton. I notice that in your testimony. Does it do a 
top-to-bottom review, including whether the whole thing ought 
to be reorganized?
    Judge King. It is top to bottom and back again.
    I would point out we did do a thorough review and revision 
in the Civil Division 10 years ago that was on the magnitude of 
the family court reauthorization. The Criminal Division is now 
under study.
    Ms. Norton. Is that how we got the review of the Civil 
Division? Was one of the outcomes of that the alternative 
dispute resolution?
    Judge King. Correct. That was one of the initiatives.
    Another principal one was that we went from a master 
calendar system to individual calendars, and the result was 
that we took a year out of the delay from filing to trial in 
civil cases on the average, and we reduced the backlog from 
30,000 cases down to a more or less current level of 8,000 to 
10,000.
    Ms. Norton. This is quite extraordinary, but it was done on 
your own initiative. I know, of course, about the ADR as being 
one of the best of the country and a real model for the 
country.
    Judge King. That's correct. I certainly hope we can bring 
that same level of attention to whatever we find in the 
Criminal Division as well. We are looking at case management 
approaches. We are working closely with other city agencies and 
other justice agencies to see where we can improve operations 
there.
    Ms. Norton. Civil Division has highly paid members of the 
bar watching the court. The Criminal Division, the Probate 
Division may not be in the same position as other divisions of 
the court. In any case, I appreciate what you have said because 
I think proactive work on the court is perhaps the most 
effective.
    I am sorry, Judge Lopez, is there something you wanted to 
add?
    Judge Lopez. No, ma'am.
    Ms. Norton. Judge Satterfield, perhaps you can explain what 
looks like a discrepancy in the report of the GAO on an issue 
that I indicated was of some interest to me; and that is, you 
know, flowing from Brianna Blackman, we are particularly 
concerned with foster children, the most unfortunate children 
in any society, children without any parents.
    Now according--I am just trying to reconcile what the GAO 
report said. Timely permanency hearings were held for 25 
percent of the cases in 2001. On page 9, it says, in 2001, 80 
percent of the cases had a permanency hearing or were 
dismissed. That is a huge discrepancy, and I wonder if you 
could explain it. This one is from--the rest of your sentence 
is 75 percent of the cases had a permanency hearing or were 
dismissed within the 425-day deadline. Now, you know, maybe 
this is just a statistical--but I would like to know how you 
would explain that difference.
    Judge Satterfield. Part of the data that GAO analyzes is 
partial data, cases that were filed in 2002. They did their 
report last year, mostly in the fall of last year, when they 
completed the data collection. In this instance, this is a 
fluid situation where every day a case is coming up that 
requires a permanency hearing or the data was not complete due 
to no fault of anybody, just by the fact that the report had to 
be completed and due to Congress in January of this year.
    We have reported in our family court annual reports our 
complete data for each year, 2001 and 2002. I know that the 
source of some of the information that GAO used was from the 
Council for Court Excellence, and they are coming out with 
their report soon, which I think is going to have another 
complete picture of how we are doing in terms of handling the 
timeliness of the hearing as well as in terms of having quality 
permanency hearings.
    Ms. Norton. In the GAO report, 55 percent had permanency 
hearings. And 55 percent in September--I don't know what that 
means. Month of September or by September 2002, where you say 
75 percent. And in 2002, 75 percent. I mean, I don't know. We 
got to get on the same page with these statistics so that they 
are using the same calendar year or same fiscal year or 
whatever.
    Judge Satterfield. They had to stop collecting data in the 
middle of the year. So not all of the 2002 cases that were due 
permanency hearing, they had not occurred because it wasn't 
required yet. Once we look at the complete data--and I think 
the Council for Court Excellence report is going to add some 
clarity to this as well as the chief judge.
    In response to the GAO report on that point, we wrote a 
letter that's attached to the GAO report and gave our view 
trying to clarify that information that was listed on that 
page. I see where the concern is and how it is listed on that 
page in terms of the chart, but we believe that was partial 
data in that the--what we were reporting in our annual report 
and what you will see in the CCE report truly reflect how we're 
doing in terms of having timely hearings, and it will be up for 
those years in the 75 to 80 percent range of having timely 
hearings.
    Ms. Norton. So timeliness is not a problem?
    Judge Satterfield. We are not 100 percent.
    Ms. Norton. Nobody is 100 percent. If, in fact, your own 
figures are the current ones, you are very close to where--it 
was a B if you were undergraduate.
    The GAO talks about permanency hearings within 12 months, 
and in your testimony you said it had their hearing within the 
14 months' statutory deadline. Explain that difference.
    Judge Satterfield. The law requires that we have a 
permanency hearing within 12 months of a child being placed in 
foster care. Under the District law, if the child is placed 
foster care, you add 60 days to that because the law requires 
that you add 60 days.
    Ms. Norton. Say that again, please.
    Judge Satterfield. Child is deemed to have been placed in 
foster care 60 days after the child had been removed from the 
home and then you start counting the 12 months.
    Ms. Norton. Who said so?
    Judge Satterfield. The law. The statute.
    Ms. Norton. Let me ask you about what was of particular 
concern to the Congress and that was the relationship between 
CFSA, child family support, and the court. In the testimony at 
page 17, I can't get a sense of where you are. You say you have 
established electronic interface. You say that you found 
additional opportunities for exchange of information. And I 
don't know whether this is a work in progress or whether 
substantial interface occurs and I can press a button if I am a 
caseworker or I can press a button if I am a judge or have my 
clerk do so and find out all the information. How close are you 
to completing computer interface with CFSA?
    Judge Satterfield. I wish we could press a button, too, but 
we are not there. We have to work with the requirements of the 
District Safe Passage Act because they are coming up with the 
system that will sort of warehouse for all the information to 
come into.
    But what we have done to enhance our ability with CFSA to 
exchange information electronically, we have already been 
giving them schedules of the hearings electronically and giving 
them information such as that. They scan their orders into 
their system--our orders into their system. What we are working 
on is working on e-filings so their orders can be sent to them. 
They can send us their court reports electronically.
    We are working with Office of Corporation Council, but 
there are impediments there because that office doesn't have 
the computer--the type of technology and enough power in their 
computer or their servers in order to work on some of the 
things we need to do with them. It is taking some time, but we 
are moving in the right direction and moving forward on it.
    Ms. Norton. I am entirely sympathetic with the computer 
problem, particularly if you are dependent on the District, 
because they had to throw out one old system and start all over 
again.
    I do want you to be in touch with my office. I regard--
among the things they are using computers for, nothing could be 
more important than your work; and the Congress places very 
substantial priority on that. So I wish you would be in touch 
with us if you think we could be helpful to you.
    Judge Satterfield. They have always been at the table 
trying to increase our exchange of information and not to 
delay. They are also part of a larger system that is being 
built in the District.
    Ms. Norton. The problem is with not with CFSA. It is 
probably above their pay grade if they are trying to get into 
the system. You and they are joined at the hip on this issue, 
so it may be someplace else trying to hook in various parts of 
the D.C. government.
    Judge King. If I might, Congresswoman Norton, two things 
that we are doing, we are doing the best we can, regardless of 
the environment that we are in. First, in choosing our IJIS 
contractor, we chose as universal a platform as we could, in 
other words, so that whatever the District ended up developing 
we would have a relatively easy time connecting in and sharing 
data.
    The other thing is that we have piggybacked on a new system 
on the criminal justice side, a justice information exchange 
system and allowed CFSA to use that.
    Ms. Norton. Is that temporary?
    Judge King. Temporarily--and that is successful. They have 
become one of the heaviest users of that system because it 
provides a way of sharing data.
    Ms. Norton. That is excellent, trying to find another way 
to do it. Appreciate you trying to get around the usual 
bureaucratic barriers.
    I have a special interest in one subject, and that is drug 
abuse. Drug abuse, often minor drug crimes, that is to say 
crimes that do not involve violence, are chiefly responsible 
for the filling of the courts, particularly of black men of 
color and now--increasingly now black women, who are often the 
guardians of these children.
    History will write--the mandatory minimums, thank goodness 
we don't have those in the District of Columbia. We have our 
own system of judging how much time will be spent. But history 
will write that the Congress of the United States is chiefly 
responsible for the fact that 75 percent of African American 
children are born to single women and increasingly other 
families are involved in the same cycle. It is one of the 
crimes of our age.
    There are a huge number of women who are entering the 
system, and those women are almost entirely there because of 
drug abuse, often because they are related to some man, I must 
say, but often to get money, because they are ill-equipped to 
work and live in inner cities where the only job is running 
drugs.
    Now, therefore, I am particularly interested in this family 
treatment court. GAO found that one of the chief barriers that 
the family court faced in meeting its goals was the shortage of 
substance and treatment services. I would like to know what 
this shortage--whether you are dependent upon the city's 
treatment services. How do you get a mother whose chief problem 
with her child is neglect because of drug abuse into the system 
and whether this family treatment court gets you any priority 
when the District is completely overrun with calls for 
treatment, as are most cities in the United States.
    Judge Satterfield. The funding for family treatment court, 
which has been in existence for about a year now, consists of--
we have a grant that provides for--the family treatment court 
coordinator is hired by the court, but this program is in 
partnership with CFSA. They have provided money.
    Ms. Norton. Excuse me. This is money you have applied for 
from the Federal Government?
    Judge Satterfield. Yes. Court improvement grant that we had 
that we are using for our coordinator position. But the actual 
treatment part of it for the women in the family treatment 
court and the residential treatment facility, that money came 
out of CFSA's budget, and they took it to their drug abuse 
agency, and that is where that is coming from. We have been 
promised that this program will continue.
    Ms. Norton. You got money for the grant. The grant comes 
from the Federal Government.
    Judge Satterfield. For the coordinator position, the 
coordinator we have hired to help us administer this program.
    Ms. Norton. I am not interested in that. I am interested in 
the treatment money. Is there money for treatment that is 
independent from the District of Columbia?
    Judge Satterfield. No.
    Ms. Norton. My God.
    Judge Satterfield. Just yesterday--we have a juvenile drug 
court, and we use the Psychiatric Institute of Washington to do 
detoxification for our juveniles, and they have been receiving 
funding from APRA to do that. I received a call yesterday 
saying that's going to stop in May, and that impacts on us 
getting the youth in the juvenile court--most of them test 
positive for marijuana and/or PCP--to get them started and 
clean so that they come in with a clear mind to the juvenile 
court and go through the treatment process. That is always 
something that is an obstacle in trying to get this service in 
place in addition to getting mental health evaluations in place 
sooner and therapy.
    Ms. Norton. I am going to say what I said to Judge King: 
You ought to look proactively at things before somebody decides 
that they got to rummage through the court's affairs. You are 
already beginning to see this happen, not to the court but to 
Oak Hill, and that is going to lead them right back to the 
court. Because what they found was that many of these children 
have drug abuse problems, and somebody's going to look at their 
commitment and somehow drag the courts into this. And we know 
the problems have originated right there as well.
    But I want to know, in light of what you have just said, 
that essentially you just got dibs on the District system, how 
is this family treatment court able to operate and to achieve 
results and indeed what have been the results. I mean, not how 
many people have gone through the system but what kinds of 
successes, how many people get in, do they get in immediately, 
what is the wait--that kind of information would be helpful.
    Judge Satterfield. I can give you some of that now.
    We just started having a waiting list now. It took awhile 
for the program to get up to speed. We were a little concerned 
in the beginning that we weren't getting enough mothers because 
we knew that there was a huge substance problem.
    Ms. Norton. What happened? You didn't get the money for the 
coordinator?
    Judge Satterfield. It wasn't the money issue. It was just 
parents choosing to come in. We would say, you can stay with 
your child if you come in this program; and some parents would 
say, take my child.
    Ms. Norton. Why would they say that?
    Judge Satterfield. Because they are not ready to cure their 
illness.
    Ms. Norton. Well, then they said the right thing.
    Judge Satterfield. And we would take their child. But the 
ones who have agreed and saw the benefits of it, now we have a 
waiting list.
    Ms. Norton. Is there counseling so the mother understands 
what she's doing and it is hard for everybody to beat a drug 
problem?
    Judge Satterfield. They go through a rigorous presentation 
in the family treatment court when we deem that case to be 
eligible.
    Ms. Norton. A child is taken on a temporary basis? She may 
lose the child altogether.
    Judge Satterfield. The child is removed--even when the 
mother is going into the program, we remove the child initially 
while the mother goes through the detoxification.
    Ms. Norton. I'm talking about the mother who says, you have 
to take my child because I can't----
    Judge Satterfield. We take the child and we go through the 
case like any other case in terms of moving toward permanency.
    Ms. Norton. You have to do it. But----
    Judge King. Before you--as you will be leaving shortly, on 
the topic on funding for drug treatment, all of our community 
court efforts depend on a similar--ultimately, on the city's 
supply of drug treatment options; and we are very concerned 
that continue because, obviously, we can't----
    Ms. Norton. Because now we don't have a sense of what the 
call on drug treatment will be, because women have only gotten 
to the point where they--this is something you really need to 
draw to our attention. Of all the parts of the system--and I 
don't know how the District decides on priorities. But of all 
the parts of the system, double damage is done here, because 
you have the drug-addicted mother and then you have the 
possibility of a child losing a parent--I should say triple--
and then going to a foster home, and we don't have enough 
foster homes. This is a terrible thing to have happen to a 
child, although I must applaud what you are doing.
    This women isn't ready. We are not adding this child to the 
list of casualties of that family. This child has to be given 
the best possible chance.
    But what interests me--and when I say proactive, I mean 
bring things also to our attention early. For example, if in 
fact there developed--let me ask you first, you are able to get 
these mothers treatment right away.
    Judge Satterfield. Right away, because they immediately go 
from detoxification into the residential program.
    Ms. Norton. In terms of depending on the District to let 
you in, the District lets you in right away.
    Judge Satterfield. The contract we have for the family 
treatment court, which is for a total of 36 women throughout 
the year that the treatment court has been existence, the 
facility can only hold up to 18 women at a time and up to four 
children per woman.
    Ms. Norton. That money has been set aside.
    Judge Satterfield. That money has been set aside, and we 
have been told that this program has been obligated for next 
year.
    Ms. Norton. The court has its own special treatment program 
for these women?
    Judge Satterfield. In partnership with CFSA.
    Ms. Norton. With their own contractor.
    Judge Satterfield. Contractor that they hired.
    Ms. Norton. All I am asking then is, don't let this program 
develop a backlog before you inform me as your representative. 
If we can somehow--I am also not for fooling around with these 
women. I am not just saying, here's your second and third time 
for neglect of a child, and you end up with a Brianna Blackman. 
But I certainly think that the harm done to going into the 
foster child system, the extraordinary harm done just to the 
child--children would often even prefer to be with a drug-
addicted mother. And I am sorry, we can't let that happen, and 
we certainly won't.
    Judge Satterfield. We will extend the invitation to you, 
Congresswoman Norton and Chairman Davis, to visit the 
residential facility out in southeast.
    Ms. Norton. That I would like to do. But I think that we 
got to keep a priority on that. We got to keep the funds there. 
You say it is only 18 at a time. Does that mean we don't have 
other people waiting to get in?
    Judge Satterfield. We have people currently waiting to get 
in. Because one of the problems that we do encounter is that 
there are housing problems for some of the women when they 
leave, and we want to make sure they have appropriate housing. 
Doesn't make any sense to have them in that facility for 6 
months with their children and only have to remove their 
children because they don't have adequate housing.
    Ms. Norton. That is another problem that you have to work 
with CFSA.
    Judge Satterfield. Yes. That's the issue that we're working 
with D.C. Housing Authority, to have adequate housing when the 
women are ready to graduate out of the residential phase of the 
program.
    Ms. Norton. Absolute priority it seems to me.
    I'm interested in the young people who age out. Everybody 
is about to lose jurisdiction of these children, and, of 
course, you hear all these stories, anecdotal, but we know from 
some of our agencies that these children sometimes end up 
homeless and the rest. Would you tell us about your so-called 
benchmark permanency hearing pilot program?
    Judge Satterfield. You are absolutely correct. What we see 
from young people across the country, some are committing 
suicide or some don't have a home to go to, much like our kids 
would have a home to come back to when they go out to college 
or otherwise and some have no support. Because we have about a 
20 to 25 percent caseload of children that may age out of the 
system, we decided to embark on this project that we have seen 
happen in Cook County in Chicago, IL, where we have benchmark 
hearings.
    We start out with one of our magistrate judges, and it is 
designed to sit down in a formal setting with the judge and 
members of CFSA. If mental health is an issue, mental health 
people are there; if drugs are an issue, they are there; and to 
really start to develop certain projects with the child that 
will lead the youth to independence. Even as simple as you come 
back in 2 weeks with your driver's license or you come back 
with a banking account, those types of things we are doing with 
the child in order to improve that. We are asking them to 
identify someone who can be around when they age out so they 
can go back to for support, and we start developing a 
relationship with that person and having that person come to 
court.
    Ms. Norton. This is so important. Sometimes the State, the 
District of Columbia, the court, has put hundreds of thousands 
of dollars into making sure this child emerges whole at 18 or 
21, and then it goes away because of aging out.
    Let me go through--the chairman is gone for a few minutes. 
I am interested in your report back on the family treatment 
court. I want to know not simply how many people go in. I want 
to know if it takes--if the treatment takes, how many--how 
successful is the treatment? What is the followup?
    You know, it takes me a long time and a lot of willpower 
not to engage in sweets, because I have a sweet tooth. I can't 
imagine what it must be to get off drugs.
    You have to tell us what you call success. For example, one 
way to look at a success is a woman who has been free and has 
had her child for a year and our followup shows there is no 
abuse and neglect. That seems to me is very important. That's 
the way you improve a program.
    Let me go quickly here. I asked for this, and I would like 
a report back to the chairman and to me on that question.
    I'd ask a similar report back on the ADR. I was very 
pleased at the way family court is using ADR. If you can avoid 
formal court proceedings, the better. I'd like a report on--if 
you don't have these statistics now, are these agreements kept? 
You can settle the case. If you are a lawyer, you settle the 
case. You are a member of the bar, keeping an agreement. When 
you have an agreement, ADR agreement, you are dealing with 
people at various levels of education, of experience. I'd like 
you to report back on, again, what is a success on ADR with the 
family court? Do, in fact, these agreements hold up when lay 
people have to understand, you know, when you sign this, you 
are signing a legal document?
    Let me go quickly to the probate court. Geez, this was a 
shock. This is pretty terrible. I appreciate, Judge King, that 
you handled quickly with the judicial order this matter.
    For example, that you have to certify that you have 
recently checked on a client's health, accounted for the money, 
no new appointments, if there had been ethical complaints, of 
course, you always depended upon the register of wills. 
Register of wills wasn't the best steward reporting to the 
court. There is concern that people who are dishonest, that 
work on the margins enough to do some of what was reported in 
the Post might also say to the court, yes, I'm doing exactly 
what you say. I'm checking on the client's health. I'm 
reporting in to the register of wills, etc. Have these 
declarations, these affidavits, in fact, improved the 
underlying concern, considering that they are self-declarations 
and the court can't go around obviously and do an investigation 
of each attorney? How do you know that what people declare that 
they have recently checked on their client's health, fully 
accounted for the money and so forth, is in fact being carried 
out by members of the bar who were engaged--some of them--in 
criminal acts?
    Judge Lopez. As far as the money is concerned, the 
accounting the conservator must file must be submitted with 
supporting documentation, bank statements, canceled checks.
    Ms. Norton. The money is clear. I have checked on this 
person, the health of this person.
    Judge Lopez. That one depends on the ethics of the 
individual.
    Ms. Norton. Why shouldn't it depend on the health? Hasn't--
for example, isn't everybody entitled, assuming there is enough 
funds involved, to a physical once a year? You and I get a 
physical once a year. Shouldn't an attorney who has 
responsibility for an adult or a child who can't take care of 
himself have to submit something?
    Judge Lopez. I fully agree with you, and one of the things 
we are exploring is to find a method to do some kind of 
physical auditing of cases of the guardianships. A variety of 
suggestions have been made by the bar, and we are going to work 
with them to find some kind of method that will be satisfactory 
in order to have some kind of physical audit of the reports of 
the guardian to fully satisfy ourselves.
    Ms. Norton. There is a limit on what you can do there, and 
some of it can be spot checking and the rest. I do urge you to 
look for what you'd look for for funds. You have to have a 
receipt, and you have to think about what that would be.
    But I gave as an example that there has been a physical. 
That can't be the entire thing, but at least you will know that 
the person is in good health. I'm not sure that having a family 
member or friend would do any better. I mean, such people can 
be dishonest as well, but there are jurisdictions that require 
you to go there first before you go to training. Do you have 
preference on that matter, whether it is a family member or 
friend or a lawyer?
    Judge Lopez. The statutory requirement is that we give 
preference to family members with the discretion as to whether 
or not there are available family members that would be 
available to perform the function or family members that we 
can, after interviewing, believe that they will follow through 
in performing the function, because otherwise we wind up 
appointing a member of the bar.
    Ms. Norton. What percentage of these cases can be handled 
by relatives or friends?
    Judge Lopez. Well, I think 100 percent could be handled by 
relative or friends if they are relatives or friends that are 
willing to perform.
    Ms. Norton. No. I'm sorry. I am asking for your results. I 
am asking for how many of these cases are being handled--what 
percentage of these cases are being handled by relatives or 
friends?
    Judge Lopez. That statistic I do not have, but I can 
provide it.
    Ms. Norton. If you would, I would appreciate it.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.022
    
    [GRAPHIC] [TIFF OMITTED] T5422.023
    
    [GRAPHIC] [TIFF OMITTED] T5422.024
    
    [GRAPHIC] [TIFF OMITTED] T5422.025
    
    [GRAPHIC] [TIFF OMITTED] T5422.026
    
    [GRAPHIC] [TIFF OMITTED] T5422.027
    
    [GRAPHIC] [TIFF OMITTED] T5422.028
    
    [GRAPHIC] [TIFF OMITTED] T5422.029
    
    Ms. Norton. How are you assuring that the register of wills 
is doing his or her job? These people report still to the 
register of wills.
    Judge Lopez. Yes. Yes.
    Ms. Norton. That person, in turn, didn't always report 
these results to you.
    Judge Lopez. The register of wills is the administrative 
arm of the Probate Division. They have auditors to audit the 
reports and provide the court any irregularities that appear in 
the reports, which includes also in the accounting--any 
irregularities that appear in the accounting that will be 
reported to the court.
    Ms. Norton. Just--so you are monitoring the register of 
wills just as much as you are monitoring the lawyers.
    Judge King. If I may add, I know that some of the problems 
that were talked about publicly were--didn't get through. That 
is obviously--the entire division has to tighten up on that. 
Ultimately, at the end of the day, all but one or two of those 
problems were discovered first by the court. The Post published 
them, but we discovered them first and were aware of them.
    Ms. Norton. You were aware of them in the order that you 
issued only after it was reported by the courts. It should have 
been issued long before the Post got ahold of it, Judge.
    Judge King. Unfortunately, not enough ahead of time to have 
cured it by the time the Post got ahold of it. My only point is 
it wasn't a complete breakdown. It was we didn't get to it as 
soon as we must.
    Ms. Norton. That goes to my question about proactive work.
    Judge King. I couldn't agree more.
    The other thing is that the decisions in the probate court 
are made by judges, not by the register of wills.
    Ms. Norton. I am talking about the information flow. Just 
as you are dependent upon CFSA, therefore, we had to interface 
the register of wills to do his job.
    Look, one more question. Mr. Chairman wants to get on the 
next panel. One more question.
    What was really so alarming about what the Post reported 
was their notion that this tight group of lawyers all knew each 
other, they recommended each other for court appointments, that 
often these appointments were the only source of the person's 
practice. One of the judges who got into the greatest trouble 
was--one of the busiest lawyers appointed 70 times, $118,000 in 
fees, rarely disciplined, etc.
    Is this work being spread out so that folks are not asking 
for recommendations from other folks who are scratching each 
other's backs? And why should it simply go to folks who need 
the money in order to be in practice at all? Why shouldn't it 
be spread out among lawyers of all kind, including some who are 
very busy but who regard this as important work to be done? And 
what are you doing to make sure you diversify the bar that does 
this work?
    Judge Lopez. We maintain that fiduciary list of attorneys 
that are qualified for appointment of cases.
    Ms. Norton. You insist upon training now.
    Judge Lopez. Correct. The way we are going on appointment 
is essentially going alphabetically down the list. Every so 
often we will skip the list and go to another name, simply 
where we have a case that has certain complexity that a certain 
attorney is prepared to handle that complexity. Otherwise, we 
just go alphabetically on the list.
    Ms. Norton. So it means that you won't get reappointed for 
a long time then?
    Judge Lopez. Exactly.
    Ms. Norton. Mr. Chairman, thank you very much for your 
indulgence.
    Chairman Tom Davis. Thank you.
    I want to thank this panel for your indulgence. I think we 
covered a lot of ground on this. We appreciate the job you are 
doing and look forward to continue to work with you.
    Call up our second panel. We have Cornelia Ashby, the 
Director of Education, Workforce and Income Security Issues, 
from GAO; Mr. Elliott Hall, chairman of the Council for Court 
Excellence; Rhonda Dahlman, esquire, the Legal Counsel for the 
Elderly, American Association of Retired Persons; Mr. Nicholas 
Ward, esquire, former chairman, Guardian and Conservator 
Committee, the District of Columbia Bar Association; and 
Michael Curtin, esquire, the former deputy register of wills, 
member of the District of Columbia Bar Association.
    It is our committee's policy that we swear all witnesses in 
before your testimony. Thank you for sticking with us. You can 
see from some of the questions I think you know where our 
anxieties are.
    [Witnesses sworn.]
    Chairman Tom Davis. We have Ms. Ashby. We will start with 
you and give your report. We try to stay to 5 minutes. 
Obviously, we didn't stay to our 5 minutes on the questions, 
but we are a little lax. So thank you for your work on this, 
and I will start with you.

STATEMENTS OF CORNELIA M. ASHBY, DIRECTOR, EDUCATION, WORKFORCE 
  AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING OFFICE; 
ELLIOTT S. HALL, CHAIRMAN, COUNCIL FOR COURT EXCELLENCE; RHONDA 
   DAHLMAN, ESQUIRE, LEGAL COUNSEL FOR THE ELDERLY, AMERICAN 
ASSOCIATION OF RETIRED PERSONS; NICHOLAS WARD, ESQUIRE, FORMER 
   CHAIRMAN, GUARDIAN AND CONSERVATOR COMMITTEE, DISTRICT OF 
   COLUMBIA BAR ASSOCIATION; AND MICHAEL F. CURTIN, ESQUIRE, 
 FORMER DEPUTY REGISTER OF WILLS, MEMBER, DISTRICT OF COLUMBIA 
                              BAR

    Ms. Ashby. Thank you, Mr. Chairman. I am pleased to be here 
today to discuss the progress the family court has made in 
complying with the D.C. Family Court Act. My comments are based 
on our January 2004, report on the superior and family courts' 
implementation of the act and the report we issued in May 2003, 
at the request of this committee on CFSA's performance.
    The family court met established timeframes for 
transferring child welfare cases into the family court. As of 
November 2003, only 30 of approximately 3,500 cases that were 
to be transferred to the family court remained outside the 
family court and had not been closed. According to information 
provided by the superior court, the cases remaining outside the 
family court involved children with emotional or educational 
disabilities, who on average were 14 years old and had been in 
foster care for 8 years, nearly three times the average number 
of years in care for a child in the District.
    In addition to transferred cases, the family court is 
responsible for the routine handling of all newly filed child 
welfare cases.
    The chart to my right shows the steps for managing child 
abuse and neglect cases in the D.C. Family Court. That chart is 
also in our statement.
    The family court has decreased the timeframes for resolving 
abuse and neglect cases. For example, between 2001 and 2003, 
the median time to begin adjudication hearings to determine 
whether the evidence supported abuse and neglect allegations 
declined more than 80 percent. Similarly, the median days to 
begin disposition to establish immediate placement for children 
declined about 80 percent.
    Despite these declines, the family court has not achieved 
full compliance with the asked-for requirement to hold 
permanency hearings within 12 months of a child's placement in 
foster care. However, the percentage of cases with timely 
permanency hearings increased from 25 percent in March 2001, to 
55 percent in September 2002; and perhaps during the question 
period I can give our perspective on why our percentages differ 
from those of the court.
    Although the presence of additional magistrate judges has 
increased the family court's ability to process additional 
cases in a timely manner, court officials have said other 
factors have also improved the court's timeliness. However, 
barriers continue to impede the family court's full achievement 
of asked-for compliance. Among these barriers are lengthy waits 
for housing, which might take up to a year, and the need for 
parents to receive mental health services or, as you pointed 
out, substance abuse treatment before they can reunite with the 
child.
    In addition, associate and magistrate judges cited factors 
that have affected the court's ability to fully implement the 
one-family, one-judge concept. Family identification of all 
cases involving the same child depends on access to complete, 
timely and accurate data; and that is the superior court's new 
case management system. The working relationship between family 
court and CFSA has improved. As presiding Judge Satterfield 
told us earlier, family court and CFSA communicate frequently 
about day-to-day operations as well as long-term plans 
involving foster care case management and related court 
priorities.
    However, family court judges and CFSA officials noted 
several hindrances that constrain their working relationship. 
Such hindrances include the need for case workers to balance 
court appearances with other case management duties and 
differing opinions about the responsibilities of CFSA case 
workers and judges.
    The D.C. courts have made progress in preparing permanent 
space for the family court. As Chief Justice King said, the 
first phase of the family court construction project scheduled 
for completion in July 2004, will consolidate family court 
support services and provide additional courtrooms, hearing 
rooms and judges' chambers. In addition, the project will 
provide an expanded mayor's liaison office which coordinates 
family court services for families and the new family waiting 
areas as well as other facilities.
    The Superior Court in the District of Columbia is 
exchanging some data and making progress toward developing 
capability to share data among their respective information 
systems. For example, in August 2003, the superior court began 
using IJIS to provide CFSA and the Office of the Corporation 
Council with information on the date, time and location of 
scheduled court proceedings.
    While the court has made progress, it has not yet resolved 
several critical issues we first reported in August 2002. 
According to the program manager, the District's Office of 
Chief Technology officer will work to resolve the issues we 
raised in our August 2002, report and incorporate the solutions 
into its plans.
    In conclusion, while the superior court, family court and 
the District have made progress in implementing the D.C. Family 
Court Act, several issues continue to impede the court's 
progress in meeting all requirements of the act. Barriers such 
as the lack of substance abuse services hinder the court's 
ability to more quickly process cases. While the superior court 
and the District have made progress in exchanging information, 
it remains paramount that their plans fully address several 
critical issues.
    Finally, while progress has been made in enhancing the 
working relationship between the family court and CFSA, this is 
an area that requires continuous vigilance and improvement in 
order to ensure the safety and well-being of the District's 
children.
    Mr. Chairman and Congresswoman Norton, this concludes my 
statement. I will be glad to answer any questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Ashby follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.030
    
    [GRAPHIC] [TIFF OMITTED] T5422.031
    
    [GRAPHIC] [TIFF OMITTED] T5422.032
    
    [GRAPHIC] [TIFF OMITTED] T5422.033
    
    [GRAPHIC] [TIFF OMITTED] T5422.034
    
    [GRAPHIC] [TIFF OMITTED] T5422.035
    
    [GRAPHIC] [TIFF OMITTED] T5422.036
    
    [GRAPHIC] [TIFF OMITTED] T5422.037
    
    [GRAPHIC] [TIFF OMITTED] T5422.038
    
    [GRAPHIC] [TIFF OMITTED] T5422.039
    
    [GRAPHIC] [TIFF OMITTED] T5422.040
    
    [GRAPHIC] [TIFF OMITTED] T5422.041
    
    [GRAPHIC] [TIFF OMITTED] T5422.042
    
    [GRAPHIC] [TIFF OMITTED] T5422.043
    
    [GRAPHIC] [TIFF OMITTED] T5422.044
    
    [GRAPHIC] [TIFF OMITTED] T5422.045
    
    [GRAPHIC] [TIFF OMITTED] T5422.046
    
    [GRAPHIC] [TIFF OMITTED] T5422.047
    
    [GRAPHIC] [TIFF OMITTED] T5422.048
    
    [GRAPHIC] [TIFF OMITTED] T5422.049
    
    [GRAPHIC] [TIFF OMITTED] T5422.050
    
    [GRAPHIC] [TIFF OMITTED] T5422.051
    
    [GRAPHIC] [TIFF OMITTED] T5422.052
    
    [GRAPHIC] [TIFF OMITTED] T5422.053
    
    [GRAPHIC] [TIFF OMITTED] T5422.054
    
    Chairman Tom Davis. Mr. Hall.
    Mr. Hall. Good morning, Chairman Davis and Congresswoman 
Norton and other members of the committee. Thank you for 
inviting the Council for Court Excellence to provide testimony 
at today's hearing. My name is Elliott Hall, and I have served 
as Chair of the CCE since June of last year. I am honored to 
present the views of the Council to this committee.
    For the record, let me summarize the mission of the Council 
for Court Excellence.
    The Council is a District of Columbia nonpartisan, 
nonprofit civic organization that has worked for over 20 years 
to improve the administration of justice in the local and 
Federal courts and related agencies in the Washington, DC, 
area.
    Let me begin by discussing the family court. The Council 
for Court Excellence is about to publish a comprehensive report 
on the performance of the District of Columbia's child 
protection system. The report addresses the city's compliance 
with the Adoption and Safe Families Act and the D.C. Family 
Court Act of 2001. The report is based on comprehensive 
research the Council conducted in the second half of 2003 with 
generous funding from Congress.
    In summary, the Council's research shows that neglected or 
abused D.C. children are in far better hands now than they were 
a few years ago. In the aggregate, the city's child protection 
system is performing at a far higher level than before, though 
there is still a need for improvement overall. It is also worth 
remembering that improved overall performance can never 
guarantee against bad occurrences in individual cases.
    The CCE report documents steadily increasing compliance 
rates with Federal and DC ASFA deadlines. That increased 
compliance no doubt has been aided recently by the 
significantly improved practices and procedures implemented as 
required by the Family Court Act. The report also documents 
nearly complete compliance with each requirement of the Family 
Court Act, though progress is slower on the Mayor's Safe 
Passage data system.
    Even more important, the case-processing improvements are 
beginning to translate into shorter stays in foster care for 
many D.C. children. Data from 2002 and 2003 indicate that those 
children who can safely be reunited with their families are 
going home in less than 1 year's time. This is a significant 
improvement from pre-D.C. ASFA days when it took nearly 2 years 
to reunify children with their families.
    While some important questions remain unanswered, the CCE 
report is largely a good news story. Additional work must be 
done to ensure better outcomes for all neglected or abused 
children, but D.C. child welfare system leaders deserve praise 
for the excellent work they have done to date. The Mayor, the 
D.C. Council and Congress also deserve praise for increasing 
both local and Federal funding to this system. Those 
investments are producing better outcomes for the city's 
neglected and abused children.
    Now for the Probate Division, adult guardianship and 
conservatorship. On June 15 and 16 of last year, the Washington 
Post published a series on the D.C. adult guardianship and 
conservatorship system which extensively researched and 
documented lax oversight by the court of adult wards of the 
court and patterns of neglect by some of the D.C. Superior 
Court's Probate Division panel of approved attorneys who are 
eligible for such appointments.
    On June 17, 2003, the chief judge of the D.C. Superior 
Court issued an administrative order relating to Probate 
Division panels and oversight. That order sought to address 
some of the issues in the Post articles.
    On June 19, 2003, the Council joined the Bar Association of 
D.C. to form a Probate Review Committee to discuss the issues 
raised by the articles. The Review Committee issued its final 
report in late February to Chief Judge King but the report has 
not been made public, pending action by the D.C. Superior 
Court.
    The report offers recommendations addressing selected 
Probate Division administrative and operating procedures, 
including providing direct judicial oversight of guardianship 
and conservator reports; enhancing communication between the 
probate bar, the bench and Probate Division staff; suspending 
or disqualifying from the fiduciary panel seriously derelict 
probate attorneys; and other issues.
    The Council supports the findings and recommendations of 
the Probate Review Committee as far as they go, but strongly 
believes that further attention is required to address and 
remedy the issues brought to public light by the articles.
    Now to issues of general court administration.
    With regard to general court administration, similar to our 
analysis of the family court and Probate Division, there is 
some good news to report since our last appearance before this 
committee in June 2002. The Council's court observation studies 
of the Civil and Criminal Divisions of the superior court 
completed in 2001 and 2002 remain true today with respect to 
the high caliber of judges and their success in providing the 
community with a high quality of justice. We also want to 
recognize the court for having written and published a 
strategic plan and for their followup in the form of four 
upcoming town hall meetings that will give residents in all 
wards of the city an opportunity to share their views about the 
D.C. Superior Court and the court of appeals and to talk with 
court leaders about important issues facing residents 
throughout the District. Such outreach is an important step.
    We also applaud the court's establishment of a pilot 
community court for police Districts 6 and 7 and can report 
that, after only a 2-year period, the pilot is functioning 
fairly well.
    The establishment of a community court was one of the 27 
recommendations made in the Council's April 2001 report, ``A 
Roadmap to a Better D.C. Criminal Justice System.'' CCE's 
December 2003, report, ``Two Years Down the Road,'' is the 
result of a 10-month study conducted last year with generous 
funding from Congress. The study charted the progress of 
efforts made to increase the efficiency of the D.C. criminal 
justice system based on the 27 recommendations of our April 
2001, roadmap report. The new report recognizes stakeholder 
agencies, the D.C. criminal justice system is indeed headed 
down the positive reform path. But much work remains to be 
done, including expanding the court's work in applying revised 
scheduling practices to the felony area, which consumes most of 
the police overtime relating to prosecutor and court 
appearances.
    Other issues with which CCE is concerned include: one, the 
continuing delay in production of court transcripts; and two, 
the lack of transparency of court information in general and 
budgetary information specifically from a public institution. 
We believe such information should be readily available to 
everyone and should be posted on the court's Web site, as 
should the court's annual reports.
    We commend this committee for your policy and fiscal 
leadership in overseeing the court's in the District of 
Columbia and thank you for holding this oversight hearing which 
we believe should be done on an annual basis. We appreciate the 
courts providing us with a copy of its budget submission to 
Congress, and we commend the courts for the high quality of 
that budget package. We also thank the D.C. courts for the 
plans they have laid out and the manner in which they have 
received our various recommendations. We continue to look 
forward to working with the D.C. courts and with this 
committee.
    I am happy to answer your questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.055
    
    [GRAPHIC] [TIFF OMITTED] T5422.056
    
    [GRAPHIC] [TIFF OMITTED] T5422.057
    
    [GRAPHIC] [TIFF OMITTED] T5422.058
    
    [GRAPHIC] [TIFF OMITTED] T5422.059
    
    [GRAPHIC] [TIFF OMITTED] T5422.060
    
    [GRAPHIC] [TIFF OMITTED] T5422.061
    
    Chairman Tom Davis. Ms. Dahlman, thank you for being with 
us.
    Ms. Dahlman. Good morning, Chairman Davis and Delegate 
Norton. My name is Rhonda Dahlman. I am an attorney at Legal 
Counsel for the Elderly in the District of Columbia, an 
affiliated organization of the AARP. Through funding from the 
Older Americans Act, we provide free legal representation to 
older residents of the District. On behalf of AARP, LCE and the 
vulnerable clients for whom I advocate, thank you for inviting 
us to discuss D.C. guardianship law and practice.
    Guardianship must be imposed only with the full protection 
of the individual's due process rights. It is the court's 
responsibility not only to determine whether and how much 
guardianship is warranted but also to appoint qualified 
individuals to serve and to monitor the guardian to ensure that 
the purpose of the guardianship is being fulfilled. In short, 
the ward must be better off, not worse off because of the 
court's action.
    We identify three critical areas of improvement needed 
within our current protective services in the court system.
    First, we need qualified guardians. When there's no 
available or appropriate family member to serve, the court 
generally appoints members of the bar. In my tenure as legal 
counsel, I have had experience with conscientious and 
proactive--a word that I know you like, Delegate Norton--very 
proactive guardians. Unfortunately, I have also had too many 
experiences with guardians who are not attentive to their 
responsibilities and ill-equipped to make even basic decisions 
on behalf of their wards.
    Although recently the court implemented a mandatory 
training for guardians and conservators in the area of probate 
law, additional topics should be included in the curriculum. I 
have experienced attorney guardians who have no knowledge in 
other areas of law in which their wards may be involved.
    For example, I petitioned the court for a guardianship for 
an elderly tenant who had been committed to a mental health 
facility and faced eviction due to nonpayment of rent. While 
there was agreement that the ward would not be able to return 
to the community, there was no one to remove her personal 
belongings and store those belongings. Unfortunately--though I 
got an emergency guardian appointed. Unfortunately, the court-
appointed guardian took 3 months to do anything for his ward; 
and once I found out nothing had been done, he informed me that 
he did not know what to do in this situation. The fact that the 
ward's personal belongings were not thrown out on the street 
was due to her housing provider who had contacted me, not her 
guardian.
    One simple improvement would be for the court to note on 
its guardian conservator list those attorneys who are trained 
and experienced in other areas of the law that relate to the 
needs of the ward.
    Another improvement would be to require that all court-
appointed guardians and conservators attend at least two 
trainings a year offered by the D.C. Bar in areas of tenant 
law, public benefits, and consumer matters. You would be 
surprised at how many guardians don't understand that their 
wards need to recertify for Medicaid or to get on Medicaid and 
they don't know that process.
    We also recommend that the court utilize training by 
qualified community social workers so that guardians are aware 
of the many social services in the District available to their 
wards.
    I can tell you that neither of these recommendations would 
create any additional financial burden to the court.
    In addition to receiving more comprehensive training, we 
recommend that any nonfamily guardians be certified through a 
written examination. Certification is one way to ensure the 
courts and the community that guardians have a basic 
understanding of their fiduciary duties and grounding in local 
law and practice.
    We also recommend a public guardian program be instituted, 
even if it is somewhat of a pilot project. The program would 
provide guardianship services as a last resort when 
guardianship is appropriate but there's no qualified relative 
to serve. A good public guardian program would be an effective 
advocate for quality care in long-term care facilities which I 
will tell you is an area where we often find an extensive 
amount of neglected wards who do not have involved families.
    Last, we need better monitoring of existing cases. The 
court appointment of a qualified guardian or conservator is 
merely a first step. The court has ongoing responsibility to 
ensure that guardians promote the welfare of those in their 
care. Most often, guardianship petitions are filed because 
there is looming health or safety risk faced by the subject. If 
the court, like in other areas of the courthouse, set status 
hearings in appropriate cases subsequent to the appointment of 
the guardian, it would inherently provide the court with direct 
oversight.
    D.C., like all States, requires guardians and conservators 
to account to the court on a regular basis. Beyond that 
requirement and compared to other States, the D.C. code 
provides little guidance as to how the courts are to carry out 
its monitoring responsibilities. Chief Judge King is to be 
commended for his recent efforts to tighten the process, but 
there is still much room for improvement. Notices of 
appointments are sometimes taking weeks to get to the newly 
appointed conservator and guardians. If the court had a 
separate monitoring team that reviewed cases regularly, there 
would be much less room for court administrative errors and 
guardian neglect of this most vulnerable population.
    Thank you for the opportunity to discuss with you the way 
older D.C. residents who need protection of the court find 
justice they deserve and to which they are entitled, and I will 
be glad to answer questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Dahlman follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.062
    
    [GRAPHIC] [TIFF OMITTED] T5422.063
    
    [GRAPHIC] [TIFF OMITTED] T5422.064
    
    [GRAPHIC] [TIFF OMITTED] T5422.065
    
    [GRAPHIC] [TIFF OMITTED] T5422.066
    
    [GRAPHIC] [TIFF OMITTED] T5422.067
    
    Chairman Tom Davis. Mr. Ward.
    Mr. Ward. Good morning. I have been practicing law in the 
District of Columbia since 1967, principally in the fields of 
trust and estates. I have served on the Superior Court Advisory 
Committee on Probate and Fiduciary Rules since 1975. During 
1987 and 1988, I served as consultant register of wills for 9 
months. My co-authored book, ``Wills, Trusts and Estates,'' is 
about to published in its fourth edition.
    The Office of the Register of Wills dates back to February 
27, 1801; and the register of wills was a Presidential 
appointee until 1946. The register of wills continues as a 
statutory office under Title 11 of the D.C. code and is 
appointed by the superior court. Under the provisions of the 
Home Rule Act, the City Council may not enact any act, 
resolution or rule with respect to any provision of Title 11. 
Several salutary changes to the statutory operations of the 
register of wills, accordingly, may only be made by the 
Congress.
    I offer three proposed changes that Congress ought to make 
to Title 11.
    One, in Maryland since 1970 a register of wills may sign an 
order admitting a will to probate and appoint a personal 
representative. When the City Council adopted the Probate 
Reform Act of 1980, it concluded that it could not give this 
power to the register of wills stating: that earlier proposals 
to increase the powers and responsibilities of the register of 
wills with respect to uncontested estate administration issues 
would involve amending Title 11 of the D.C. code and thus be 
beyond the jurisdiction of this council.
    There are 2,500 new decedents' estates opened each year in 
the District of Columbia. If the judges had 2,500 fewer orders 
to sign, they would have more time to devote to matters more 
suited to their skills and the register would spend less time 
writing up advisory slips for the judges. Please give the 
register of wills the authority to admit wills to probate and 
appoint personal representatives in testate and intestate 
cases.
    Two, guardians appointed in an intervention proceeding are 
obliged to file guardianship reports every 6 months on a court-
developed form. It was determined by the register of wills and 
the Advisory Committee on Probate and Fiduciary Rules when the 
rules to implement the intervention act were being written that 
the Office of the Register of Wills would not ``audit'' these 
reports as the Office did not have anyone on the staff who 
really had social worker type competence to audit the reports. 
The role of the Office would simply be to monitor the filing of 
the reports but not their content.
    While there is a director of social services in the 
superior court, this director has no jurisdiction over any 
adult under supervision. While the officer of the District of 
Columbia courts may appoint such personnel as may be needed by 
the register of wills, rather than put the register of wills in 
the middle of what could be arguably be an unwanted expansion 
of the powers of the Office without a statutory predicate, the 
Congress should amend the provisions of Title 11 to create the 
position of auditor of social services to be filed by a trained 
social worker who could both develop a new, more meaningful 
guardianship report and monitor the contents filed of 
guardianship reports to ensure that the wards are receiving 
minimally adequate care.
    Three. Conservators in intervention proceedings are given 
statutory power to invest their ward's assets as would a 
trustee. The court rules provide a prudent investor standard 
for fiduciary investment by fiduciaries reporting to the court, 
but, other than advising fiduciaries that bank balances must be 
kept within Federal insurance limits as required by the 
Intervention Act, the auditors rarely question investments 
because they are not trained to recognize a bad investment from 
a good one.
    If the register of wills had an investment officer who was 
trained in investments, the register of wills could much better 
monitor the conservator's investments of a ward's assets. 
Again, not to put the register of wills in the middle, the 
Congress should amend Title 11 to create the position, and 
definition of requirements for, an investment officer in the 
Office of the Register of Wills.
    Three other matters not requiring a solution by an act of 
Congress. Joint control. When a fiduciary is required to post 
bond, the bonding companies require the fiduciary to file an 
application for a bond. If the fiduciary cannot qualify for the 
bond, the fiduciary cannot be appointed. A practice developed 
where the bonding companies agreed to write the bond if the 
bank would agree not to honor checks unless cosigned by the 
fiduciary's attorney acting on behalf of a surety, a practice 
which has received statutory recognition.
    The court in the recent past decided not to permit this 
practice to continue. The effect is to force fiduciaries to 
make their attorney a cofiduciary, thereby setting a possible 
conflict of interest between the attorney's duty to the client 
and the attorney's duty as a fiduciary to the ward or the 
estate. The committee should admonish the Probate Division to 
reinstate joint control.
    Two. When the will is a safe deposit box solely titled in 
the name of the decedent, the practice used to be for the 
register of wills to send one of the appraisers to the bank. 
The safe deposit box would be opened, and only the will removed 
and taken to the court for filing. The court rules provide a 
fee for this, which is $25.
    In 1998, the register of wills discontinued this practice 
and substituted the filing for an appointment of the special 
administrator, a much more cumbersome procedure and 
unnecessary. The rationale was that there was no statutory 
basis for the practice in that banks were unfamiliar with it. 
This committee should admonish the register of wills to 
reinstate the practice of sending a representative from the 
office to attend safe deposit box openings to search for a 
will.
    Three, and last. Appointing counsel for the subject as the 
conservator for the ward deprives the subject of a zealous 
representation when counsel sees a lucrative opportunity to 
become the conservator of a wealthy ward. Counsel appointed for 
the subject is supposed to provide zealous representation. 
Counsel also is supposed to advocate the least restrictive 
intervention possible. But if counsel knows there is a good 
chance counsel will be appointed conservator, why should we 
believe counsel will advocate not appointing a plenary 
conservator? The committee should admonish the Probate Division 
not to appoint counsel for the subject as the conservator for 
the ward.
    Thank you for listening.
    Chairman Tom Davis. Thank you very much. That was fast 
reading, but we got it in under the time.
    [The prepared statement of Mr. Ward follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.068
    
    [GRAPHIC] [TIFF OMITTED] T5422.069
    
    [GRAPHIC] [TIFF OMITTED] T5422.070
    
    Chairman Tom Davis. Mr. Curtin, thank you.
    Mr. Curtin. Mr. Chairman, Congresswoman Norton and other 
committee members, I very much appreciate the committee's offer 
to testify before you today.
    Mr. Chairman, in your letter dated April 20th, the 
committee solicited my views on the appointment, 
responsibilities and accountability of the register of wills 
and her staff as well as the relationship of the register of 
will's office with practitioners, and presumably the public, as 
well as the adequacy of the current reporting requirements for 
conservators and the enforcement of these requirements. You 
have also asked that I comment on the use of new technologies 
to streamline guardianship and conservatorship administration. 
I am not a tech geek, if you will, Mr. Chairman, so I will 
leave the comment on new technologies to more learned folks 
than myself.
    Having practiced almost exclusively in the Probate Division 
since its inception in 1972, and 3 years before that in the 
U.S. District Court, the court that formerly had jurisdiction 
over trust and estate matters here in the District, as well as 
having been employed as the deputy register of wills in that 
office from 1966 to 1969, I appear before you with certain 
ingrained prejudices and/or biases concerning just about every 
facet of the Probate Division's work.
    I was fortunate to serve as the reporter for the initial 
Advisory Rules Committee formed in 1971 to draft rules 
governing the administration of estates, guardianships of 
minors, and guardianships and conservatorships of incapacitated 
adults. It is my honor to have served on that committee with 
members of the bench and bar for more than 23 years. The role 
of that committee and all of its successors was to draft those 
rules of procedure in the administration of estates, 
guardianships and conservatorships in accordance with the 
statutory framework first promulgated by the U.S. Congress and, 
since 1972, the District of Columbia City Council.
    So that the committee can get a full flavor of this 
rulemaking process and how it works, let me mention that the 
members of the Advisory Committee are selected by the chief 
judge of the superior court, and consistently have included 
members of the bar with particular expertise and experience in 
matters that were handled or brought before the Probate 
Division.
    In addition, it has been a consistent practice that a 
number of superior court judges, including those judges 
assigned to the Probate Division sit on the Advisory Rules 
Committee. The work of that committee since its inception has 
been to periodically meet to discuss and propose modifications 
for existing rules as well as new rules that may be deemed 
appropriate to more efficiently implement statutory schemes 
governing the works of the Probate Division. Those rules are 
thereafter reviewed by the Rules Committee of the Board of 
Judges of the superior court, and then, if deemed appropriate 
by that committee, submitted to the full Board of Judges of the 
superior court for approval. They are thereafter put out for 
public comment, and after a period of time promulgated as rules 
of the court. I think we can all agree that process is very 
open and transparent.
    Having provided you that thumbnail sketch of the rulemaking 
process in the court, now let me tie that process directly into 
your committee's focus this morning. The register of wills as 
well as key deputies and other senior staff of that office have 
either been members of the Advisory Committee or acted as staff 
available to the Advisory Committee in drafting the proposed 
rules.
    Can the rulemaking process governing the Probate Division 
be improved? Although as indicated above there is significant 
openness and transparency to the process, one suggestion in 
that record would be to have the court consider having Advisory 
Committee members expanded to include one or more health care 
professionals or social workers who could lend a nonlegal 
perspective to the discussion and debate, at least in 
deliberating over the drafting of rules affecting guardianships 
and conservatorships of incapacitated adults.
    The appointment, responsibilities and accountability of the 
register of wills and her staff. As I am sure you have heard 
from the court personnel here this morning, and as Mr. Ward 
just alluded, the register of wills is, in fact, appointed by a 
Board of Judges of the superior court pursuant to Chapter 21 of 
Title 11 of the D.C. code.
    In addition to the duties, powers and responsibilities set 
forth in Chapter 21 of Title 11, a specific Probate Division 
court rule authorizes and, in fact, instructs the register of 
wills to review all ex parte matters and to make 
recommendations to a Probate Division judge as to whether or 
not a proposed order should be signed as submitted. This review 
process entails the register or one of her deputies reviewing 
the request for ex parte relief and providing a written 
recommendation to the court for that purpose. The written 
recommendations become part of the court file.
    While not a statutorily defined duty, the register of 
wills, by virtue of existing court rules, is obligated to 
advise the court of any irregularity perceived in connection 
with the administration of decedents' estates, guardianships of 
minors, or conservatorships and guardianships of incapacitated 
adults. These irregularities can run the gamut of failing to 
file statutorily mandated or rule-mandated inventories or 
accounts and/or failure to comply with audit requests made by 
the staff of the register of wills. The current register of 
wills, the Honorable Constance Starks, has held that position 
since 1988. Since that time there have been no less than four 
significant, far-reaching and sweeping changes in the 
guardianship/conservatorship statute or the administration of 
decedent estates, and most recently a version of the Uniform 
Trust Act has been adopted by the District of Columbia.
    All of these statutory changes have required substantial 
revisions of the rules and procedures as well as undertakings 
that govern and guide practitioners and the general public in 
this area of the law. The amount of the work done by the 
register of wills and her staff, as well as the organized bar 
and bench, in adopting rules and procedures consistent with 
these numerous changes has been remarkable. I think it is 
important to note that all of these changes were implemented 
without an ostensible hitch or disruption in the administration 
of the decedents' estates or conservatorships or guardianships.
    I recognize that the purpose of this hearing or for my 
testimony is not to articulate the nuances or the good points 
or bad points of these numerous statutes. I mention them only 
so that the committee can get an understanding of how 
administratively the Office of the Register of Wills positively 
coped or dealt with the changes in procedure and administration 
due to the changes in the statutes. I hasten to add that 
approximately in that same period of time, the staff at the 
register of wills office has been reduced from 82 to less than 
50.
    I think everyone here at this hearing this morning will 
agree that the articles that appeared in the Washington Post in 
June 2003 were not the best days for the Superior Court of the 
District of Columbia. Washington Post reporters did an 
extensive study of estate, guardianship and conservatorship 
proceedings that had been instituted within the Probate 
Division in the last 8 to 10 years prior to that article being 
published.
    I am morally certain that the survey of available cases 
during that time exceeded 20,000. In the 2 days of the Post 
article, they highlighted no less than 10 cases of egregious 
conduct, where unchecked behavior, where misfeasance or 
nonfeasance were not challenged, and in one case outright theft 
by a personal representative of the decedent's estate in the 
hundreds of thousands of dollars.
    In partial response to a question you tendered, 
Congresswoman Norton, I hasten to add that as to that just 
mentioned example of theft by a personal representative, that 
individual was not a lawyer, and there was nothing, absolutely 
nothing, that either the register of wills office or the court 
could have done to prevent that theft. The estate was operating 
under a statutorily mandated, unsupervised administration, and 
until a complaint was filed by an interested person, there was 
no way that the theft could have been either detected nor 
prevented.
    Nonetheless, I believe the stories were a wake-up call. It 
was a wake-up call for the register of wills office, it was a 
wake-up call for the court, and it was a wake-up call for the 
bar. The chief judge, in consultation with the presiding judge 
of the Probate Division, immediately took steps to deal with 
the perceived pattern of conduct that allowed the 
irregularities and abuses cited in those articles to be visited 
upon the citizens of D.C. The chief judge's administrative 
order forthrightly spoke to the practicing bar in unequivocal 
terms that we must do better. We have rules to be observed, we 
have deadlines to be met, and failure to do so in the future 
will, in fact, have consequences.
    In the weeks and months since the Washington Post article 
and the famous administrative order issued by the chief judge 
immediately following those articles, there have been rumors 
and grumblings by the organized bar about the draconian nature 
of Chief Judge King's order and the register of wills' 
implementation of that order.
    Chief Judge King properly perceived the problem within the 
Probate Division and entered an order that had to be 
implemented. I respectfully suggest to the committee, to the 
extent that there has been an interest in this dynamic, that 
the grumblings had more to do with shooting the messenger, the 
implementer, than anything substantive.
    In the passage of time, the administrative order has been 
amended on two different occasions. While I am not fully 
certain, I believe these amendments have addressed the 
articulated and, maybe in some instances, legitimate concerns 
of the members of bar without diluting the message that comes 
loud and clear from Judge King's order: Filings will be made 
timely, irregularities will be dealt with directly, and those 
fiduciaries abusing their responsibilities will be dealt with 
appropriately.
    In conclusion, Mr. Chairman, I commend your committee and 
its members for its desire to make sure that the superior court 
and the various divisions continue to provide outstanding 
service in the administration of justice to the citizens of the 
District of Columbia. In that role I urge you to continue to 
encourage and, yes, even prod the Congress and the executive 
branch of the District of Colombia government to provide 
resources necessary to continue this work and to enhance the 
services to be afforded to the citizens of the District.
    I thank you for your time. I will take any questions that 
you may want to present.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Mr. Curtin follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.071
    
    [GRAPHIC] [TIFF OMITTED] T5422.072
    
    [GRAPHIC] [TIFF OMITTED] T5422.073
    
    [GRAPHIC] [TIFF OMITTED] T5422.074
    
    [GRAPHIC] [TIFF OMITTED] T5422.075
    
    [GRAPHIC] [TIFF OMITTED] T5422.076
    
    [GRAPHIC] [TIFF OMITTED] T5422.077
    
    [GRAPHIC] [TIFF OMITTED] T5422.078
    
    Chairman Tom Davis. Let me just start where you left off, 
Mr. Curtin, and for you, Mr. Ward. Looking back at the Post 
article, it notes that in half of the 783 long-term 
guardianships initiated between 1995 and 2000, caretakers filed 
no reports for 18 months or more, missing their deadlines by at 
least a year. According to the Post review of records, that is 
in half of the cases. In 170 of those cases, no reports were 
filed within 3 years, and 127 or about one-sixth of the cases 
the guardians never reported back after they were appointed. 
That is the fault certainly of the guardians, but also of the 
court in terms of its oversight.
    Now, my question is this to both of you: Do you think the 
court is adequately exercising its power to sanction lawyers 
and fiduciaries in appropriate cases?
    Mr. Curtin. Your Honor, I do think--Mr. Chairman, I do 
think----
    Chairman Tom Davis. I am not an honorable. That is 
apparent.
    Mr. Curtin. I heard you wanted to a judge. You told us you 
wanted to be a judge.
    But, Mr. Chairman, I believe that the court does have 
adequate ability to sanction a lawyer now. I think the--again, 
I don't know--I didn't study each case that they looked at, but 
I would dare say that a number of those cases where people 
didn't report properly or timely to the court, they were late 
folks, and the court really has no sanction except to remove 
that fiduciary as a fiduciary. They can't put them in jail. 
They are not going to hold them in contempt. What they will do 
is eventually remove that PR----
    Chairman Tom Davis. Couldn't they order them to report back 
by a certain time; if they don't, then you are in contempt?
    Mr. Curtin. Yes, they could. And, in fact, that has 
happened where they have these summary hearings when they bring 
them in and they say--they give them an excuse, and then they 
will tell them to come back. But to my knowledge, there has 
only been one case where a fiduciary was held in contempt. I 
have to say to you that the court of appeals reversed that 
trial court's decision.
    Chairman Tom Davis. I guess the problem is that once this 
stuff gets out of hand, the word gets out, and then nobody 
obeys it. So it starts at the top.
    Mr. Curtin. I think that was the problem that hopefully 
Judge King's administrative order is going to address. When it 
involves a lawyer, I can assure you that those notices of--that 
you are in default, you are in irregularity, are going to be 
met with dispatch, because the sanction now of referral to bar 
counsel almost as an automatic is a heavy hammer that works.
    Chairman Tom Davis. Mr. Ward, do you have any comments?
    Mr. Ward. I would like to suggest to you, however, that in 
those cases, if the reports had been timely filed, the ward 
would still have suffered, because nobody reads the reports. 
And there is nobody who is competent to read the report. And 
the reports were written by the Rules Committee, by lawyers who 
don't know too much about social work. So the questions that 
are asked on the reports aren't necessarily the cleverest 
questions.
    Chairman Tom Davis. But let me ask you this. The reports 
are also sent to interested persons, not just the court. 
Doesn't that sometimes generate----
    Mr. Ward. Well, if there are interested persons, but 
sometimes there aren't.
    Mr. Curtin. The answer is yes, they are sent to interested 
persons, but--they are required to be sent to interested 
persons. Yes.
    Chairman Tom Davis. If they are sent anywhere, they are 
filed.
    Ms. Dahlman. If I might add?
    Chairman Tom Davis. Sure.
    Ms. Dahlman. I file these petitions on a regular basis. I 
do not get these reports. I get these reports if the ward has a 
lot of money. I have probably received maybe one or two reports 
from guardians that have filed their reports in the past 5 
years.
    Chairman Tom Davis. How many should you have received?
    Ms. Dahlman. Pardon?
    Chairman Tom Davis. How many do you think you should have 
received?
    Ms. Dahlman. I think I should have received all of them.
    Chairman Tom Davis. Which is how many?
    Ms. Dahlman. I probably file about 30 a year.
    Chairman Tom Davis. OK. Mr. Ward, do you think the court is 
exercising its powers to sanction lawyers and fiduciaries in 
appropriate cases?
    Mr. Ward. I think it is doing it inappropriately. There 
have been several references to counsel, bar counsel, but have 
been dismissed by bar counsel because the decisions were flat 
wrong and against the rules, and they are up in the court of 
appeals now. The court has the ability to do it, but they use 
it sometimes with a heavy hand.
    Chairman Tom Davis. Let me move to Ms. Ashby. What action 
has the family court implemented to improve working 
relationships between the CFSA, social workers and the family 
court judges?
    Ms. Ashby. Well, as both Judge King and Judge Satterfield 
reported, at the highest levels of both organizations there are 
meetings, both on day-to-day operations and on longer-term 
projects and goals.
    The difficulty that we stated in our statement, and also in 
our earlier report, was that when you start talking to the 
social workers and some of the judges and magistrate judges 
themselves, in the practical day to day to day, how do we work 
together in resolving a particular case, there are problems. 
From a social worker's point of view, the problems stem from 
the judges not respecting their ability to make decisions about 
well-being, safety of children. Sometimes there are critical 
issues at hand. Judges sometimes make rulings that the social 
workers don't think it appropriate.
    On the other side, from a judge's perspective, they get 
frustrated because it takes a long time to get things done. 
Sometimes services aren't provided if there is not a court 
order. So a court order is issued.
    There are a lot of the day-to-day frustrations and 
inefficiencies that need to be worked out, but certainly at the 
top level, there are lots of opportunities for meetings and 
attending training together and conversation and communication.
    Chairman Tom Davis. Well, the family court has improved the 
percent of cases that comply with that ASFA permanency hearing 
requirement. What do you think is needed to further improve 
their ability to fully meet this requirement?
    Ms. Ashby. Well, maybe this is a good opportunity for me to 
address the discrepancy in numbers. There are probably a number 
of factors that account for the difference in the percentages 
that we reported and those that the court are reporting.
    First of all, the definition of what the requisite period 
is at issue, I believe. On page 3 of our testimony statement, 
we list the ASFA requirement with respect to permanency, and we 
say that a permanency hearing must be held within 12 months of 
a child's entry into foster care. Entry into foster care is 
defined based on the earliest of two dates. One is the date of 
the first judicial finding, and the other is the date that is 
60 days after the child has been removed from his or her home, 
if removal occurs.
    It appears that the court is simply taking the second part 
of that definition, and that is where the 425 days comes from, 
a year, 12 months, plus 60 days, based on information that we 
have regarding when the first adjudication hearing occurs, and 
that time is decreasing--it has increased more than 80 percent 
in the last 2 or 3 years. It would seem that there certainly 
must be many cases where the earlier date is the date of that 
first judicial finding, and that seems to be ignored.
    Also, the dates--actually the information we used came from 
the Council for Court Excellence. And we selected those numbers 
as opposed to the court's, because those numbers were based on 
a case file review. And during that case file review, one of 
the things that became evident was that sometimes permanency 
hearings are held, but all of the requirements of those 
hearings are not met.
    A permanency hearing is supposed to result in two things: A 
goal for the permanent placement of the child, which can be 
reunification, adoption, something else; and a date by which 
this is to occur. Quite often there is the goal but no date by 
which it is to occur. So it is questionable about whether these 
types of proceedings actually constitute permanency hearings. 
There are slight timing differences, and that might account for 
some of the difference, but it will not account for the total 
difference in our numbers.
    As was said, the Council for Court Excellence is going to 
come out with new numbers very soon, and we look forward to 
seeing how they compute those numbers and what they are.
    Chairman Tom Davis. Thank you.
    Mr. Hall, what measures would you recommend for the Probate 
Division to implement to ensure competency on the part of 
court-appointed guardians and conservators?
    Mr. Hall. The appointment of counsel has played a big role 
so far since the publication of those articles in the Post in 
making sure that competent counsel are appointed. What we have 
pointed out is making certain that you cap the numbers of 
guardianship or conservatorship cases that are assigned to an 
attorney over a period of time.
    I think you mentioned during the course of the hearing 
today that some counsel have had a number of cases far 
exceeding their capabilities in dealing with them, and capping 
those numbers will be----
    Chairman Tom Davis. So it is a burden issue as much as a 
competency issue?
    Mr. Hall. Absolutely.
    Chairman Tom Davis. You think that would probably be the 
most straightforward----
    Mr. Hall. I think the judge mentioned in the last panel 
that they are going through these alphabetical listings of 
assigning, but there will be some cases with some complexities 
that some lawyers with backgrounds in these particular areas 
will be more capable of handling.
    Chairman Tom Davis. Is thought given, do you think, as 
those appointments are made in terms of matching it up with 
attorneys of competence?
    Mr. Hall. Well, obviously they have avoided that now, 
answer to these criticisms, because they are going through in 
alphabetical order. That, of course, means there are going to 
be various levels of competency for everyone if you use a 
purely alphabetical system.
    Chairman Tom Davis. Right.
    Mr. Hall. In most cases if you stay with a category of 
lawyers that are expert in a certain area, of course you are 
going to get the kind of problems that we had before. How you 
correct that is going to be interesting.
    Chairman Tom Davis. Let me ask Ms. Dahlman. I think she has 
noted that there are 700 voluntary National Guardianship 
Foundation-certified guardians, but none practice in the 
District.
    Ms. Dahlman. Yes. There are none that are certified in the 
District. That is correct.
    Chairman Tom Davis. Why do you think that is? What good 
does it do you, right?
    Ms. Dahlman. Because it is not required.
    Chairman Tom Davis. Not required. Doesn't do you any good. 
You don't get any bang for it, right?
    Ms. Dahlman. No extra kudos for that. It is not required, 
and people aren't going to do it. If it is not required, you 
are not going to do it. I will give the court credit in these 
cases. They don't always stay by that list. We will look.
    Chairman Tom Davis. If they get a complex case, they are 
going to look for an attorney that can handle it.
    Ms. Dahlman. They will look for that attorney. But these 
are attorneys, they are not social workers, so we look for the 
attorney that can deal with the mental health issues. You know, 
but it is difficult, because these are attorneys. They are not 
social workers.
    Chairman Tom Davis. We don't know every attorney. You have 
a long list.
    Ms. Dahlman. Exactly.
    Bear in mind that we should start public guardian programs, 
because then we would have people that would be trained 
specifically in those areas of these very difficult cases.
    Chairman Tom Davis. I could go on all day with questions. 
You have been a great panel. I appreciate it. I am going to 
yield to Ms. Norton for some questions.
    Ms. Norton. Thank you, Mr. Chairman. I have just a few 
questions.
    I am confused about this notion of guardians who are 
members of family, and guardians who are lawyers, and I would 
like the opinion of each of you about this. I don't know if 
having a guardian who is a member of the family or friend is, 
for example, less expensive than having a lawyer. That would be 
something I would be interested in. But my main interest is 
whether one necessarily gets better service from a nonlawyer.
    You know, we start with the notion that if there is an 
available family member, and many of these cases necessarily 
involve knowing something not only about the particular issue 
before you, but knowing something about how other areas of the 
law may, in fact, be affected.
    A lawyer is subject to the total control of the court. He 
can lose his license. He can be sanctioned in ways that affect 
him professionally. I am not convinced that an amateur, simply 
because the person is close, is the best guardian, but I don't 
know.
    And I don't know whether there should be a presumption, one 
way or the other, nor am I convinced that simply to send 
somebody to a training session makes him somehow a fully 
qualified guardian of the kind of lawyer he is. The lawyer 
can't tell me, hey, look, I know about tax, therefore I took 
this matter for that reason; but I don't have any understanding 
of mental health law, so please don't hold me accountable. 
Where it seems to me that to require, in this complicated 
system, a lay person to have that kind of understanding may be 
in its own way risky.
    I would like to hear your opinion as to whether or not this 
simply ought to be judged not whether or not you are a friend 
who looks like you are intelligent, or you are a lawyer who 
looks like you know the area, but whether or not this simply 
ought to be done on a highly individualized basis with no 
presumption one way or the other.
    Mr. Curtin. Congresswoman Norton, I would like to respond 
by saying that, first of all, the current statutory framework 
provides that if the individual who now is incapacitated has, 
in fact, designated, as an example, in a power of attorney that 
he would want or she would want----
    Ms. Norton. Well, that is out of the court's hands then.
    Let's talk about where the court has to decide whether it 
is a person who is a family friend; you know, there is no 
indication in a will, there is no indication by a document, and 
somebody has to decide whether it is going to be a friend who 
has been close over the years, or whether it is going to be a 
relative, or whether it is going to be a lawyer.
    Mr. Curtin. It is not an uncommon thing in the superior 
court for the judge to designate a family friend or a family 
member to be guardian of the person and then appoint a lawyer 
to be guardian of the property, having a different role. The 
guardian of property would be managing the money. The guardian 
of the person would, in fact, make the personal health 
decisions for that individual.
    And the judges I have seen have struggled with that issue 
and dealt with it in that way, so that there is some reasonable 
assurance that the money would be handled properly, but the 
medical decisions and the personal decisions for the 
incapacitated ward would be made by a family member or close 
personal friend. And that is the best of both worlds.
    Ms. Norton. So you think that might be the best 
combination?
    Mr. Curtin. Yes, I do.
    Ms. Norton. Do the rest of you agree?
    Mr. Ward. We should also consider the way this gets to the 
court. The Intervention Act considered an adversarial 
proceeding where we have the zealous advocate representing the 
subject who is supposed to respond to the petition and 
represent the interests of the putative ward. If this is done 
properly, if there is a problem about the person who is seeking 
to become the guardian, that is usually ferreted out.
    Typically we have a situation in this area where we have 
multiple siblings, only one or two of whom are here, and the 
others are in California, so one of them gets the fiduciary 
appointment. Then the mother dies, and the one from California 
comes back and says, where is my inheritance? So in the process 
of getting these people appointed, and if it is done properly, 
the court will take a neutral person if the family is feuding, 
but if it is not, and the counsel for the subject doesn't see 
the problem, then doing it as Mr. Curtin suggested is a very 
logical way to do it.
    Mr. Hall. You know, from a perception point of view, I have 
to point out that the Washington Post observed that the 
determination that the court takes to appoint a guardian or a 
conservator takes around 10 minutes. To the public--that may 
seem an inadequate amount of time for a court to make an 
important determination as to the nature of a person's life. 
But when it comes to the question of whether the person 
appointed should be counsel or family member, I have seen it 
work, in my experience, in both ways, if the person is able and 
gives attention to the issue. And it could very well be a 
family member who has the background and the education to 
understand what has to be done, and they do it in a 
conscientious manner.
    Ms. Norton. Well, thank you, Mr. Hall. This notion about 
the 10 minutes in the Washington Post the court takes strong 
exception to, because it indicated to our staff that there may 
be such cases, but that nobody can know how much each takes.
    But that many hearings require less time. I don't know 
enough about this area of the law to know whether or not there 
are some things that can be disposed of that easily or not. Do 
any of you have any feel on that?
    Mr. Curtin. Your Honor, I would say that I am sure the 
Washington Post reporters that wrote that sat in the courtroom 
and saw one hearing take 10 minutes. I have been in that 
courtroom on numerous and diverse occasions where a 
conservatorship hearing or guardianship hearing would take 
three-quarters of a day. It would take parts of 2 days. But I 
have no doubt that they did witness one or two or maybe a dozen 
hearings where it took 10 minutes.
    Ms. Norton. It could be the lawyer who is a relative, for 
example, you know. So I don't assign anything to anecdotal 
evidence. I am far too statistical.
    Ms. Dahlman. I can tell you that it is not uncommon. It is 
not uncommon. Many of my hearings are very short.
    Ms. Norton. Well, you think that the cursory--the time of 
the hearing is of no concern to me. I would have to know all of 
the background to know whether that was true.
    Ms. Dahlman. If you have an examiner who has a visitor, you 
don't--the court-appointed counsel, the guardian ad litem, 
there is a clear case of incapacity.
    As Mr. Curtin said, on the other hand, especially if you 
are dealing--that is when you are dealing with dementia, 
Alzheimer's and situations like that. When you are dealing with 
mental illness, it takes on another----
    Chairman Tom Davis. Let my ask this. I guess my question, 
the followup to that is have you watched courtroom proceedings 
where it has taken 10 minutes and it probably should have taken 
a lot longer? That is the point.
    Mr. Ward. Well, these articles were written before the 
court of appeals decided the Orshanky case in which the court 
of appeals admonished the superior court that if the statute 
says the subject is supposed to be present at the hearing, and 
unless there is a good reason not to--routinely the counsels 
waived the presence of the subjects at the hearing. There were 
a lot of procedural steps that--where the court was taking 
shortcuts where the court of appeals said you shouldn't do 
that. So I think that the hearings now would take a little bit 
longer than at the time those articles were written.
    Ms. Norton. It is an important point to make.
    Mr. Chairman, I have only one more question, and that is: I 
was concerned, Ms. Ashby, part of your report, page 14, 
procedural impediments to adoption. This committee has put 
considerable interest on priority on adoption, the need to 
complete administrative requirements associated with placing 
children with adopted families in locations other than the 
District. That is something we heard about CSFA some time ago, 
insufficient guardian or adoption subsidies. Is this a District 
government problem----
    Ms. Ashby. Well, it is----
    Ms. Norton [continuing]. Or a CSFA problem?
    Ms. Ashby. It is a national problem, certainly not unique.
    Ms. Norton. But you said administrative requirements. I am 
concerned about administrative----
    Ms. Ashby. The difficulties with interjurisdictional 
agreements involving----
    Ms. Norton. But then there was a new agreement.
    Ms. Ashby. There was an agreement with Maryland. I don't 
know the specifics of it, but, as I understand, there was some 
difficulty with that. I also understand that the effort--
current effort is to place children within the District of 
Columbia as opposed to Maryland or Virginia, and I again don't 
know what is behind that. We are currently doing work under the 
appropriation--the 2004 D.C. Appropriation Act, a mandated 
study, looking at CFSA, and part of what we are doing is 
looking at its recruitment and retention of adoptive and foster 
care homes. So we are in the process of getting more data on 
that.
    The procedural difficulties have to do with the 
difficulties with interjurisdictional agreements, and at the 
essence of that are the home studies that are required, and 
which jurisdictions is the home study done in, who does it? Is 
the home study done by one jurisdiction accepted by another, 
and so forth? These are national issues.
    I forgot the second part of it.
    Ms. Norton. You've answered my question, if you are doing a 
study of the interjurisdictional agreements. And I would hope 
that study will include why--I don't care where these children 
are placed, frankly. I think they have to be placed in the best 
home.
    I think today you are probably less likely to find that 
best home in the District of Columbia. We have lost so many 
people. We have a disproportionate number of very poor people. 
So I would be interested in any preference as to where the 
child is placed as opposed to the best placement for the child.
    And with that, Mr. Chairman, that is my last question.
    Chairman Tom Davis. You have been a very patient panel. You 
have been a very good panel. We very much appreciate your 
testimony. Your entire testimony is part of the record.
    Anything anybody want to add after all of this that maybe 
you didn't get in?
    Ms. Ashby. I failed to actually answer one of your 
questions. You asked what else the family court could do in 
terms of increasing permanency. I will just briefly cite 
several things that we did cover in our statement.
    One has to do, of course, with the availability of 
substance abuse treatment--and that has been talked about--and 
other services that families need in order to bring about 
reunification. That is not something that the court can do per 
se, but it is something that needs to be done in order to allow 
for faster permanency determinations.
    Also, with respect to the court, we have been told by 
judges that additional support staff are needed to help with 
the processing of cases and entering information into the 
computer system and so forth. The court is looking into its 
human capital needs and has not made a determination whether it 
is true or not at this point.
    The computer system that is supposed to allow the court to 
communicate with other agencies within the District that 
influence the safety and well-being of children, it is an 
ongoing effort. There has been progress, particularly between 
the court and CFSA, and the court and the Corporation Counsel, 
but still there are other agencies that need to be brought on 
board.
    And I guess finally, this again is more CFSA than it is the 
court, but there seems to be a shortage of social workers, and 
there is high turnover among social workers, which makes it 
difficult if a social worker leaves and someone else takes over 
the case, they don't necessarily know all that has happened 
with that case.
    We have reported in the past problems with the computer 
system within CFSA and how not all information is recorded and 
so forth.
    So it is a number of things that need to be dealt with. 
Some the court can control, some it can't. But the court, CFSA, 
and other organizations within the District working together 
should be able to improve things.
    Ms. Norton. Mr. Chairman, Mr. Waxman has asked that a 
written statement by admitted into the record.
    Chairman Tom Davis. Without objection, so ordered.
    Again, thank you very much for being here. Thank you for 
your testimony. The committee stands adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T5422.079
    
    [GRAPHIC] [TIFF OMITTED] T5422.080
    
    [GRAPHIC] [TIFF OMITTED] T5422.081
    
                                 <all>

</pre></body></html>
